<html>
<title> - LIBYA: DEFINING U.S. NATIONAL SECURITY INTERESTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





            LIBYA: DEFINING U.S. NATIONAL SECURITY INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

                           Serial No. 112-25

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
65-492PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable James B. Steinberg, Deputy Secretary, U.S. 
  Department of State............................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable James B. Steinberg: Prepared statement.............    22

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Ron Paul, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    59
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    60
Written responses from the Honorable James B. Steinberg to 
  questions submitted for the record by the Honorable Russ 
  Carnahan.......................................................    61

 
            LIBYA: DEFINING U.S. NATIONAL SECURITY INTERESTS

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    After recognizing myself and the ranking member, my good 
friend Mr. Berman of California, for 7 minutes each for our 
opening statements, I will recognize each member for 1 minute 
for opening statements. We will then hear from our witness. 
Thank you. And I would ask that you summarize your prepared 
statement to 5 minutes before we move to the question and 
answer period under the 5 minute rule.
    Without objection, Mr. Steinberg's prepared statement will 
be made a part of the record. And members may have 5 
legislative days to insert statements and questions for the 
record, subject to the limitations in the rules.
    The Chair now recognizes herself for 7 minutes.
    Mr. Deputy Secretary Steinberg, I would like to recognize 
the Iranian Americans from my District and around the nation 
who are in the audience this morning and have family members in 
Camp Ashraf in Iraq. They are extremely concerned about the 
safety and the welfare the residents in Camp Ashraf and the 
actions of the Iraqi Government against them. I urge the State 
Department to ensure that the Iraqi Government will comply with 
its obligations under the Status of Forces Agreement and 
international human rights standards.
    Thank you, sir.
    The President's address to the nation on Monday on the 
situation in Libya was a welcome development but left many 
questions unanswered. The President justified intervention by 
asserting ``There will be times when our safety is not directly 
threatened but our interests and values are.'' The President 
has also said that he authorized military action to ``enforce 
U.N. Security Council Resolution 1973'' and the ``writ of the 
international community.''
    Whether we agree or disagree with the decision to intervene 
in Libya, concerns have now raised across both sides of the 
aisle about implied future obligations under the Responsibility 
to Protect, a vague concept first articulated in a U.N. General 
Assembly resolution more than 1 year ago, which the U.N. has 
endorsed but failed to define.
    Reports that the Senior Director of Multilateral Affairs on 
the National Security Council Staff, Samantha Power, reportedly 
helped lead the charge to intervene in Libya based upon this 
principle--over the objection of military planners--only 
compounds those concerns. Some Americans therefore question 
whether we have assumed obligations to forcibly respond to 
crises everywhere, including Ivory Coast, Sudan, or Syria.
    Another area of concern is the scope, duration and 
objectives of the NATO-led operation and the political mission 
that have not been sufficiently defined. Nor have the 
anticipated short, medium and long-term commitments of the 
United States.
    The President has called for Ghadafi to step down in favor 
of a government that is more representative of the Libyan 
people. However, administration officials have also said that 
Ghadafi himself is not a target and that the United States is 
not pursuing regime change.
    But then, Reuters reported yesterday afternoon that the 
President had signed a ``secret order authorizing covert U.S. 
Government support for rebel forces seeking to oust the Libyan 
leader'' and that the President had said the objective was to 
apply `` `steady pressure, not only militarily but also through 
these other means' to force Ghadafi out.''
    So, Mr. Deputy Secretary, which is it? What is our 
objective?
    Further, what are the contingency plans if Ghadafi is able 
to cling to power? Would a political agreement that left 
Ghadafi in power be an acceptable outcome? What are the 
implications for Libya, for the region, and the United States 
if the civil war reaches a stalemate? When referring to Libyan 
opposition, is the President referring to armed rebels, to 
members of the Transitional Council, or to both? And what do we 
know about the armed forces? What do we know about the members 
of the Transitional Council? What assurances do we have that 
they will not pose a threat to the United States if they 
succeed in toppling Ghadafi? And how will opposition forces, 
both political and military, be vetted?
    Just yesterday, Secretary Clinton stated that Resolution 
1973 amended or overrode previous U.N. Security Council 
resolutions imposing an arms embargo on Libya. The Secretary 
said the resolution: ``Amended or overrode the absolute 
prohibition on arms to anyone in Libya, so that there cold be a 
legitimate transfer of arms if a country should choose to do 
that.''
    So, Mr. Secretary, I ask how is the U.S. defining 
``legitimate?'' Does the administration contend that U.N. 
Security Council Resolution 1973 overrides U.S. prohibitions? 
And does that mean that U.N. resolutions create U.S. laws?
    There are reports that some opposition figures have links 
to al-Qaeda and extremist groups that have fought against our 
forces in Iraq. My constituents are asking: Just who are we 
helping and are we sure that they are true allies who will not 
turn and work against us?
    These are valid concerns, particularly given the 
administration's less than stellar record on promoting 
democracy and governance in Libya, which would have included 
funding organizations run by the Ghadafi family had this 
committee not intervened by not signing off on the funding.
    The record on transfers of military-related items involving 
Libya is also disconcerting. For example, for over 1 year, I 
requested a detailed national interest justification for two 
proposed weapons transfers to Libya. The Department failed to 
give us that written justification. Ultimately, the proposed 
transfers were withdrawn but only after Ghadafi began the 
slaughter of civilians.
    Remarkably, however, the committee received a letter from 
Secretary Clinton earlier this week regarding the overall 
Congressional consultation process for defense sales and 
seeking to limit the time for Congressional review. It is 
ironic that ill-advised weapons transfers to the Ghadafi regime 
were only stopped as a result of this committee's due 
diligence, yet the State Department now complains about our 
efforts to carry out careful due diligence on all weapons 
transfers.
    I hope that the administration will commit to working with 
Congress effectively and transparently to address vital 
national security and foreign policy concerns relating to arms 
sales.
    The committee will continue to press for answers on the 
U.S. strategy in Libya going forward and our short, medium and 
long-terms commitments.
    And now I am pleased to yield to my good friend, the 
esteemed ranking member, Mr. Berman, for his opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Berman. Well, thank you very much, Madam Chairman, for 
calling for this very timely hearing. And before I begin the 
opening remarks, let me just say on a personal note that on 
behalf of the committee, thank you very much, Deputy Secretary 
Steinberg, for your exemplary service to the country. We are 
going to miss you. I enjoyed on so many different issues 
working with you.
    My own personal feeling is that former Deputy Secretary Lew 
is not as prickly as Felix and that you are not, perhaps, as 
combative and argumentative, as Oscar. You are also not as 
sloppy. And you have to read the Secretary's release before you 
know what I am talking about here.
    But anyway, I do wish you the best of luck at Syracuse 
University, and we will miss you.
    President Obama's decision to take military action in 
response to the humanitarian crises in Libya may provoke 
questions that are not fully answerable at this time, but I 
believe it was the right policy because the alternative, 
acquiescence in the face of mass murder, was untenable. And I 
believe it was done in the right way, namely with the 
cooperation of the international community.
    President Obama's policy has unquestionably saved many 
lives, probably tens of thousands of them. And it has weakened 
a brutal dictator and an egregious sponsor of terrorism. It 
will also, I hope, cause other dictatorial regimes to think 
twice before they use unbridled violence against peaceful 
protestors.
    We have been prudent in focusing on civilian protection and 
doing so in a way that spreads the burden among our allies, 
including some Arab countries. The President has clearly stated 
that the United States' military goals are limited, in line 
with the relevant U.N. Security Council resolutions. Together 
with our allies, America's military mission has been: First, to 
implement a no fly zone to stop the regime's attacks from the 
air, and; secondly, to take other measures which are necessary 
to protect the Libyan people.
    America's involvement in Libya directly supports the United 
States' national interest.
    First, the United States plays a unique role as an anchor 
of global security and advocate for human freedom. In Libya we 
embraced this important role head on by preventing a madman 
from slaughtering his own people.
    Secondly, Libya's neighbors, Tunisia and Egypt, have just 
gone through revolutions which are changing the nature of the 
region, hopefully, for the better. If Libya were to spin out of 
control and instability were to pour over its borders, the 
entire region would suffer. This outcome would certainly not be 
in the national interest of the United States or our allies.
    But we have to acknowledge another fact. This operation 
will not be a success unless it ends with the demise of the 
Ghadafi regime. The reason is clear: The mandate for this 
operation is that it protect Libyan civilians, yet we all know 
there can be no enduring protection for the Libyan people as 
long as Ghadafi remains in power. But we also must acknowledge 
something else: That we do not know exactly how Ghadafi will be 
brought down.
    The President has placed limits on the operation, with 
which I agree. We do not want American boots on the ground. We 
do not want the operation to be too costly, and we do not want 
it to divert resources from Afghanistan and Iraq. At the end of 
the day, however, we have put our leadership prestige on the 
line. Whether voluntarily, by the hand of his own people, or as 
a result of coalition action, it is essential that Ghadafi go.
    Mr. Secretary, I hope you will be able to enlighten us 
about how our current strategy of sanctions and international 
isolation combined with military pressure will hasten the 
removal of Ghadafi from power, as much as can be discussed in 
this unclassified setting. I think we all understand, however, 
that there is no easy recipe. We are all aware of the reports 
yesterday and this morning about CIA operatives allegedly in 
Libya with the rebels. Again, this is an unclassified setting 
and I would not expect you to comment on those reports, but can 
you tell us if the administration has now made a decision to 
provide direct military support to the rebels?
    We would also like to know what the implications are of the 
hand over of the operation to NATO. Will the transition be 
seamless? Will the operation look essentially the same as it 
has over the past 2 weeks? Will other NATO member states pickup 
the operations that we are ceasing to perform? Will NATO be 
able to maintain the tempo of the operation once the U.S. 
assumes a supporting role?
    Further, I would like to hear some of your thinking on the 
post-Ghadafi era. It may seem premature, but we must be 
prepared if the regime rapidly crumbles under the weight of 
coalition strategy.
    In thinking about a post-Ghadafi era, we would be 
interested in your thoughts about the National Transitional 
Council; its composition, its viability, its goals and its 
level of support among the Libyan people. Are there any other 
contenders for power in a post-Ghadafi Libya? If we think the 
Council is the likely heir to power, what is our hesitation in 
recognizing it as the French and the Qataris have done? And 
would not our recognition help to increase the Ghadafi regime's 
sense of isolation and deepen the international community's 
sense that his departure is inevitable? Does the Council 
include elements that should cause us concern? And how are we 
going to make certain that a successor regime does not resort 
to the same thuggish tactics that have been Ghadafi's hallmark?
    We have had a long and difficult history with Ghadafi, he 
has the blood of many Americans on his hands. For a brief 
period we were willing, tentatively, to open a new chapter with 
him after he agreed to give up his weapons of mass destruction 
and related materials 7 years ago. But when we saw him firing 
on his people, we had no choice but to act for as we know all 
too well from our own bitter experience about his cynical 
disregard for human life and his almost casual willingness to 
commit murder and inflict torture just to stay in power.
    Mr. Secretary, before closing I would like to raise 
specific humanitarian issues of differing levels of urgency.
    First, Ghadafi's forces have created a humanitarian 
disaster in Misratah. Why have we not, at the least, 
established a humanitarian sea corridor to Misratah in order to 
relieve the terrible suffering?
    Second, I understand there are some 1,700 Libyan students 
in the United States who cannot get access to their monthly 
stipends because of our appropriate decision to freeze Libyan 
funds. Is that accurate? And if so, what are we doing to 
rectify this situation?
    And finally, on a different note, I would like to say how 
important it is that we keep our eye on the Iranian nuclear 
ball at all times. I was pleased to see that the administration 
imposed sanctions earlier this week against Belarus Russian 
energy company called Belorusneft. I would be less than candid 
if I did not express some disappointment, however, that we have 
once again imposed sanctions on a company that does not do any 
business in the United States, so the sanction has no more than 
symbolic impact. That was also the case when we opposed 
sanctions a few months ago on the Swiss-based, but Iranian 
owned, energy company NICO. When we do that, I am afraid we are 
sending Iran a signal more of weakness than of strength and we 
are having no impact on their economy. Such impact is the very 
point of sanctions.
    With that, Madam Chairman, I will yield back my 9 seconds. 
Well, actually, it has gone the other way.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman. I thank you 
for talking about the Iran sanctions, and I totally agree with 
that.
    So pleased to yield to my friend from New Jersey, the 
chairman for the Subcommittee on Africa, Global Health, and 
Human Rights, Mr. Smith.
    Mr. Smith. Thank you, Madam Chair. And thanks for calling 
this very important hearing.
    I am once again grateful to the U.S. military personnel and 
our coalition forces for their courage, professionalism, and 
tenacity they have exhibited in executing their orders to 
implement U.N. Security Council Resolutions 1970 and 1973. 
While our forces have heroically taken on yet another combat 
mission in the Near East and performed extremely well, I am 
nevertheless deeply concerned about our use of force in Libya, 
and more particularly about the path this administration took 
to bring us to this point. And I know the Under Secretary will 
answer our questions, and so very ably as he has done an 
extraordinary job as Under Secretary, but I would like to know 
when we first initiated military action did the administration 
who, exactly who, the leaders of the rebel forces were? What 
are their aspirations for a post-Ghadafi Libya? Are they 
surging or have they given commitments that they will seek a 
democracy, the rule of law, and respect for human rights? I 
think that is all very important, especially when we risk the 
lives of our men and women in uniform to give them air support.
    I have a number of other questions, but I am out of time.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Ackerman, the ranking member on the Subcommittee on the 
Middle East and South Asia.
    Mr. Ackerman. I thank the chair.
    Mr. Secretary, I thank you very much for your service. We 
are really going to miss you. You have done an excellent job 
and always very cooperative with the members of our committee.
    I would like to use my 1 minute just to be introspective on 
what has been happening across the Capitol from both political 
parties. Because I have been a bit troubled on the reactor to 
the President's announcements that have occurred from Congress 
in both Houses.
    Regardless of party, I do not think that the predisposition 
to liking the President or disliking the President is a 
substitute for questioning and evaluating foreign policy. We 
should be doing that on a nonpartisan basis.
    I was particularly troubled by so many people who just 
rubber stamped what the President was doing without thinking 
about it, and I was at least equally troubled by those who were 
critical of the President for doing what they suggested to do 
in the first place, and then were critical of him for doing it 
after he did it.
    We have to be a lot more careful because we are at a 
juncture in world history right now where the big things are 
happening and we really have to analyze and appreciate what we 
should be doing about that.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Ackerman. I particularly want to thank the chair for 
having this hearing so early. I remember during the war in 
Iraq, it was 1 year before we had a hearing on Iraq. So this is 
has been very important.
    Chairman Ros-Lehtinen. Thank you, Mr. Ackerman. Thank you.
    Mr. Burton, the chairman of the Subcommittee on Europe and 
Eurasia, is recognized.
    Mr. Burton. Thank you, Madam Chairwoman.
    I just had some questions that I hope we will be able to 
cover today.
    First of all, Congress was not involved at all in this 
decision making process, but the United Nations was and the 
Arab League was. And it seems to me we should have been 
involved very much at the very beginning of this.
    The Defense Secretary said that this was not a national 
security interest, but it was of interest. Why is that?
    There are people that are supposedly terrorists. I mean, 
Brad Sherman yesterday at the closed hearing gave names of 
people that have fought us in Afghanistan and Iraq, and why are 
we supporting people who may be terrorists, who are terrorists 
and maybe giving us a hard time down the road?
    You know, I just do not know how we pick these things.
    The Ivory Coast right now there is a real carnage there. 
Are we going to go to the Ivory Coast and have a no fly zone 
and start bombing people over there? Why did we pick Libya and 
not the Ivory Coast because there is more carnage there right 
now?
    Chairman Ros-Lehtinen. Thank you, Mr. Burton.
    Mr. Payne, the ranking member on the Subcommittee on 
Africa, Global Health, and Human Rights is recognized.
    Mr. Payne. Thank you very much. And thank you, Madam Chair, 
for allowing us to have 1 minute and Mr. Steinberg, Secretary, 
for your commitment.
    Let me just say that, you know I guess anything that the 
President does is well, I heard someone say, ``If you walk on 
water, they say you could not swim.'' So, the fact that 1 year 
ago when the Lockerbie bomber was released, everybody said 
``How terrible it is. All of a sudden Libya is the worst place 
in the world.'' It is amazing now that I heard people wondering 
why we are in Libya, all of a sudden in 1 year there has been a 
total change in our position against Libya. It is sort of 
strange. I do not know whether it is who called for action 
rather than the action taken.
    I would also certainly like to know that our responsibility 
to protect is certainly something that is very important. I 
think that we would like to find out about NATO's roles.
    And, I would also like to know about the treatment of the 
so-called minorities that are in Libya right now who have been 
accused of being supported with the mercenaries.
    Thank you very much.
    Chairman Ros-Lehtinen. Thank you, Mr. Payne.
    Mr. Rohrabacher, the chairman of the Subcommittee on 
Oversight and Investigations.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    I give high marks to this administration, to the Secretary 
of State and to the President on how this crises in Libya has 
been handled. Yes, we are up against radical Islam and we will 
hear about that as this hearing goes on. But if the United 
States was not engaged in helping those fight for freedom, 
those people who want to overthrow tyrants and corruption in 
the Islamic world, we would leave the field to the radical 
Islamists. We need to be engaged. We do not need to send U.S. 
troops on the ground. If the President introduces troops on the 
ground, you have lost me. But this is consistent: Helping those 
people fight for their own freedom is consistent with what we 
did during the Reagan years. It is called the Reagan Doctrine. 
We did not send people all over the world and put them into 
action, we helped those people all over the world who were 
willing to fight for their own freedom. And in this case I 
understand, or I have been in direct contact with the leaders 
of Libya of the revolutionary movement, that they will repay 
the United States for every cent that we spend in helping them 
free themselves from the Ghadafi leadership.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rohrabacher. So I am looking forward to the hearing. 
And I think they have handled the situation we have in the 
right way.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Meeks, the ranking member on the Subcommittee on Europe 
and Eurasia.
    Mr. Sherman. I apologize. You were there first. I 
apologize. I missed your card.
    Mr. Sherman. I hope to learn today whether the 
administration will comply with Section 5 of the War Powers Act 
or whether in the guise in promoting of democracy in Libya, 
they are going to undermine democracy and the rule of law in 
the United States.
    The administration says that this has cost us $600 million 
so far. They arrived at this number using marginal costs. Any 
CPA would tell you that you should focus on field cost which 
would reveal that this is costing what the American people 
think it is costing, that is to say millions of dollars a week. 
The $30 billion we seized from Libya and Ghadafi assets should 
be used immediately to defer these costs.
    Ghadafi has American blood on his hands, but so do some of 
the rebel commanders. They fought us in Afghanistan and Iraq 
and we should demand that the rebels extradite these criminals, 
or at least use their best efforts and it would start by 
stopping cooperation with and seeking to incarcerate Abdel 
Hakim al-Hasidi who brags about the efforts he made against our 
troops in Iraq and Afghanistan.
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Royce. Thank you.
    Four weeks ago the Secretary of State was here, and I 
suggested at that time that we should jam Ghadafi's 
communication system. There is no cost to doing it. And in fact 
we had a lot of officer defections at that time.
    I look for meaning in this. We recognize we got a $14 
trillion debt, and we spent $0.5 billion in a few days on this 
operation. I think the estimates are that it is going to be for 
a 6-month no fly zone; a very expensive proposition.
    We have got $33 billion right now in frozen Libya assets. 
We need to put those to use.
    The President boasts about a coalition. It is time for that 
coalition to open its checkbook. If we are going to proceed, it 
needs to offset dollar-per-dollar because at the end of the day 
there are costs to our security, too. We focus, you know away 
from our strategic threats. It has taken us far too long, for 
example, to exit Iraq. Now we have this added commitment.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Royce. The only way for it to go down is to pay for it 
out of those Libyan assets.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    Now we are ready to hear from Mr. Meeks. This is going to 
be a good 1 minute because you had a lot of time to prepare. 
Sorry about that.
    The ranking member on the Subcommittee on Europe and 
Eurasia.
    Mr. Meeks. Thank you, Madam Chair.
    Whenever the President of the United States commits our 
nation to any level of military engagement, it is a serious and 
sobering moment and there are bound to be questions and 
concerns that must be addressed. I have my full sheet of 
questions and concerns about our actions with regard to Libya, 
but I want to be sure to take this opportunity at the outset of 
this hearing to get on the record my appreciation for a key 
fundamental component of this particular engagement. That is 
the fact that we are operating in a multi-level partnership 
with NATO and coalition forces, sharing the responsibilities 
that come with the establishment of a no fly zone and necessary 
measures to protect civilians as authorized by U.N. Security 
Council 1973 on March 17th.
    From my perspective, the necessity, purpose, objective and 
methods of Operation Odyssey Dawn were made clear by the 
administration. That said, I expect the administration will 
continue to work closely with Congress on this engagement as we 
move forward.
    I recognize that this is a developing situation which the 
reports today of rebels in tactical retreat. We know that days 
coalition convened in London to discuss next steps politically 
and otherwise. So, today I look forward to getting more of the 
details and answers that will help inform my perspective and 
decision making as a Member of Congress.
    Chairman Ros-Lehtinen. Thank you, sir.
    Chairman Chabot, who chairs the Subcommittee on the Middle 
East and South Asia, is recognized.
    Mr. Chabot. Thank you, Madam Chair.
    There has been a lot of concern, a lot of questions asked 
by members on both sides of the aisle. My principal concern is 
the fact that the administration had plenty of time to get the 
authorization, the okay of the U.N., of NATO, of the Arab 
League yet they could not find time in that period of time 
between President Obama indicating that Ghadafi had to go and 
actually taking military action to actually consult the elected 
representatives of the American people. That should have been a 
priority under these circumstances, and there was time.
    President Bush got the authorization of Congress before 
going into Iraq, Afghanistan, his father did in Kuwait. That 
was, I think, a key mistake on this administration's part.
    There has also been far too much confusion, for example, on 
saying Ghadafi has to go, no he does not necessarily have to 
go. I think that should be very clear.
    And we also have to have much better insight on just who 
these rebels are.
    Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    My list indicates that Mr. Connolly is next to be 
recognized for 1 minute.
    Mr. Connolly. Thank you, Madam Chairman.
    And, Mr. Secretary, job well done and you will be missed.
    You know, I think it is very important to remember that in 
this exercise of limited intervention by the United States we 
are operating under a legal framework. What makes this 
different than other places, Yemen, Bahrain and so forth, is 
that we had for the first time in my memory an Arab League 
resolution calling for a no fly zone in a fellow Arab country. 
We had a U.N. security resolution, in fact we had two of them, 
1970 and 1973, calling explicitly for all necessary means to 
stop the bloodshed in Libya. The United States is part of that 
lawful international community and responded. Responded in a 
limited way with the coalition.
    I look forward to this hearing and I look forward in 
particular, Mr. Secretary, to your outlining not only this 
legal framework for the President's response, but also how the 
administration views the necessary consultation with Congress 
as this event unfolds.
    And I was pleased to hear Mr. Rohrabacher's support for the 
administration.
    Than you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly.
    Dr. Paul of Texas.
    Mr. Paul. I thank the, Madam Chairwoman.
    Once again the American people are being suckered into one 
more war; illegal, unconstitutional and undeclared. We have 
been doing this since World War II and they have not been good 
for this country, and they have not been good for the world.
    This is said to be a war that is to prevent something. It 
is a preventative war. They say there is going to be a 
slaughter, but there has so far not been a slaughter. In 
checking the records the best I can, I have seen no pictures of 
any slaughter. But already it is reported now that our bombs 
have killed more than 40 civilians. So how can you save a 
country by killing civilians?
    This is a bad war. We got into it incorrectly. It will not 
help us. And unfortunately, I do not see that this 
administration or any administration is going to move back from 
this until we become totally bankrupt. It is very necessary for 
us to assess this properly.
    And the way we go to war is very important. Just not get 
token permission, we should never go to war without a full 
declaration and it should be strongly bipartisan.
    Chairman Ros-Lehtinen. Thank you, Dr. Paul.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Mr. Secretary. I look forward to 
your testimony today.
    Over the last several days we have heard a lot of debate 
about our involvement in Libya. Everybody seems to be looking 
for false clarity. And the fact of the matter is war is very 
ambiguous and I would rather have cautious ambiguity than false 
clarity.
    Having said that, we are involved in other conflicts in the 
region. I think that Libya's situation is very different from 
that, Egypt per se, where I think that movement is very organic 
where this is very different. We do not know what we are going 
to get in the end.
    And I am reminded of the United States' efforts to assist 
the Mujahideen to break the Soviet invasion of Afghanistan. And 
at least components of the Mujahideen morphed into the Taliban. 
This is a very, very complicated situation. We have to treat it 
as such. We have to understand the complexities of the region 
and complexities of the country and apply those to realistic 
policies from which we can proceed.
    So, I look forward to your testimony.
    Chairman Ros-Lehtinen. Thank you so much.
    The vice chair of the Subcommittee on the Middle East and 
South Asia is recognized, Mr. Pence of Indiana.
    Mr. Pence. Thank you, Madam Chairman, for calling this 
hearing. And thank the Deputy Secretary for his years of 
service to the country.
    We are at war in Libya. I know there is careful parsing of 
words to describe our military action; no fly plus and the 
rest. But we are at war in Libya.
    And while I am troubled by how we went to war in Libya, I 
will never jeopardize support for our troops, but I do not 
believe the President of the United States has the authority to 
take America to war without Congressional approval where our 
safety and vital national interests are not directly 
threatened.
    I also do not believe in limited war. I believe if America 
chooses to go to war, then by God you go to war to win.
    Now the President said this week that it would be a mistake 
to broaden our mission. He said ``We went down that road in 
Iraq,'' and we are certainly going down a very different road 
than we went in Iraq. In Iraq we had a clear objective. We had 
Congressional bipartisan approval in both Houses, then 
international support, then through trial and sacrifice of 
blood and treasure we prevailed. Here in Libya no clear 
objective, no Congressional approval, uncertain and wavering 
international support, aerial bombardment; we are on a 
different road.
    So, Mr. Deputy Secretary, I would like to ask you in the 
course of conversation today tell me why Congress should not 
immediately bring an authorization to the floor of the House of 
Representatives that would define our mission or end this 
mission and bring the clarity that the Constitution and the 
American people expect.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Schwartz of Pennsylvania is recognized.
    Ms. Schwartz. First, I would like to also add my words of 
acknowledgement to the members of the armed forces who once 
again have stepped into harm's way at this time as part of a 
international coalition to prevent Ghadafi regime from 
massacring Libyan citizens seeking democratic and human rights.
    President Obama has emphasized the military mission in 
response to potential humanitarian crises be both limited and 
have the support of a broad international coalition, including 
the endorsement of the U.N. and the Arab League and the African 
Union. The President has upheld this pledge by successfully 
handing off command and control the NATO lead coalition. The 
fact that the call to action by the broad international 
coalition is there has been absolutely critical. There is a 
clear regional and international agreement on the use of 
military force to protect civilian, and the coalition 
leadership helps ensure that we do not assume sole 
responsibilities for operations or costs.
    In addition to the military involvement, the United States 
has applied strong diplomatic and economic pressure on Ghadafi; 
that is a good thing. I hope to hear more about that, including 
freezing more than $30 billion of Libyan assets.
    Ghadafi is more and more isolated and his military 
capabilities has been seriously degraded. However, the outcome 
of our intervention is uncertain and I share the concern of so 
many Americans about the weeks ahead; the concern about the 
possible escalation of our intervention as well as the costs of 
continued or increased involvement.
    So I look forward to the information provided at this 
hearing to answer the many questions that we have posed on 
behalf of the American people.
    Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Wilson of South Carolina is recognized.
    Oh, I am sorry, I forgot. Mr. Wilson has the minister for 
the day.
    So, we will go to Judge Poe; that is just the way it is.
    Mr. Poe. Madam Chair, no question about it: Maummar Ghadafi 
is a world outlaw. So because he is a bad guy, it appears that 
the President has used military force in Libya. I am concerned 
about the legal authority for such military action in Libya. 
Has the Constitution and the War Powers Act been followed? 
Maybe not.
    Secretary of Defense Gates has stated that Libya is not in 
the vital interests of the United States. Then why are we 
dropping bombs in this country?
    The President has indicated that Ghadafi is treating the 
rebels in an inhumane way, therefore this Obama Doctrine of war 
in the name of humanity is troubling. Since our U.S. national 
security is not at stake, what constitutional authority do we 
have to be at war in Libya? The Constitution may be 
inconvenient, but it is meat to be. War is a serious matter and 
Presidents and Congresses should be inconvenienced on these 
roads to war.
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Ms. Bass of California is recognized.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chairman. And thank you for 
convening this timely hearing.
    Welcome, Mr. Secretary.
    I look forward to your testimony today. I think we all 
recognize that Libya presents a complicated set of events in a 
rapidly changing set of circumstances and many of us are 
concerned, but I think we were gratified to hear the 
President's address to the nation. And I think our ranking 
member has correctly identified there are some issues where 
there will not be absolute clarity or certainty, I am anxious 
to hear from you so that we can make the best decisions based 
on the best and most accurate information.
    And again, I welcome you and look forward to your 
testimony.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Johnson of Ohio.
    Mr. Johnson. Thank you, Madam Chairman.
    And Mr. Deputy Secretary, thank you for being here today.
    With the onset of U.S. military action in Libya, I am 
troubled by the circumstances surrounding our nation's 
involvement there. Having served in the United States Air Force 
for 26 years myself, my military experience has taught me that 
any mission must have clear objectives to be successful and an 
unambiguous end state in mind from the onset.
    And I appreciate the President providing the American 
people with the background leading to his decision, however our 
engagement in this conflict should not have begun without a 
clear definition of the mission we hoped to accomplish with our 
military forces. I find it extremely troubling that the 
President did not first discuss American involvement with the 
Congress, but rather consulted with the United Nations and the 
Arab League for approval. I submit that that is not who he gets 
his approval from.
    As we continue with the President's stated mission of 
protecting the people of Libya, I hope to hear some 
clarification today on what our objectives are, what our long-
term national security interests are and what the risks were 
that prompted our involvement there.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Cardoza of California.
    Mr. Cardoza. Thank you, Madam Chair. And thank you for your 
continued stewardship of this committee.
    I will associated myself with the remarks of Mr. Berman, 
Mr. Ackerman and Mr. Rohrabacher. I will not repeat them now, 
but I think they are very instructive.
    I think this is no time to engage in politics or 
pontification. This is a serious and critical time for our 
country and the world. I am very concerned, Mr. Secretary, 
about how may have leaked the President's findings and whether 
or not that puts the men and women that we may or may not have 
on the ground in the intelligence community in that country at 
jeopardy. I think that we need to move forward cautiously, and 
this is a time for this committee to do its job, ask the tough 
questions but also to understand the difficult challenge that 
the President and your Department are engaged in.
    Chairman Ros-Lehtinen. Thank you, Mr. Cardoza.
    Ms. Buerkle of New York, the vice chair of the Subcommittee 
on Terrorism, Nonproliferation, and Trade.
    Ms. Buerkle. Thank you, Madam Chair, and thank you for 
hosting this timely hearing this morning.
    Thank you to Deputy Secretary Steinberg for being here.
    If I could respectfully recommend, you buy a heavy winter 
coat and boats because Syracuse University is in my District, 
so long hard winters up there.
    I, too, with my colleagues share the concerns that we have 
heard here, and I will forward to hearing the answers to these 
questions about why the U.N., why the NATO, why the Arab League 
was consulted before the Congress and before the American 
people. So, I look forward to this morning's hearing.
    Thank you.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Sires of New Jersey.
    I apologize to my colleague, my fellow Floridian, Ted 
Deutch. You know, the ones you love the most--uh-oh. Mr. Deutch 
is recognized, then we will go to our side, and then we will go 
to Mr. Sires.
    Mr. Deutch. Thank you, Madam Chair.
    I will ask you to finish that statement later.
    Chairman Ros-Lehtinen. Yes. I stopped before I got myself 
in deeper trouble there.
    Mr. Deutch. Thank you, Madam Chair, Ranking Member for 
holding this timely hearing.
    Secretary Steinberg, thank you for being here. Thank you 
for your service, and good luck to you in those brutal Syracuse 
winters.
    I would also like to commend the State Department and 
Secretary Clinton for her leadership at the U.N. in securing 
passage of Security Council Resolution 1973.
    The actions of our Government over the past weeks in Libya 
have made it clear that the U.S. stands firmly in support of 
those seeking democracy and freedom.
    Monday, I was pleased to hear the President define our 
goals for the operation and strongly reiterate to the American 
people that there will be no U.S. troops on the ground. The 
decision to intervene in conjunction with the international 
community was one that was necessary to prevent a massacre of 
innocent civilians and stabilize a region on the brink.
    I look forward to hearing from your today, Mr. Secretary 
speak to your thoughts on what pressure will be necessary to 
assist the opposition in its quest to remove Ghadafi from power 
and short of that--short of that when we will know that this 
engagement can and should end.
    And I yield back my time.
    Chairman Ros-Lehtinen. Thank you. Thank you. I am sorry, 
Ted.
    Ms. Ellmers of North Carolina.
    Ms. Ellmers. Thank you, Madam Chairman.
    And thank you, Mr. Deputy Secretary, for being with us 
today. Of course, this is just such an important hearing.
    And, you know I join with my colleagues and all the 
concerns, and I am very much looking forward to your input so 
that we can understand these issues better.
    My main concern is for our servicemen and women right now 
and their safety, especially at a time when we are stretched so 
thin in our military actions. I hope that I will be able to go 
back to my constituents and explain that this is a finite 
action and that we have a secure strong military strategy.
    And with that, I yield back the rest of my time.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Sires. Do not be mad.
    Mr. Sires. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. You are so small, it is easy to jump 
over you.
    Mr. Sires. Mr. Secretary, our congratulations and good luck 
on your next endeavor.
    And I just want to compliment the President for acting so 
quickly and commend him on working with the international 
community and the NATO community, especially on protecting the 
lives of civilians in Libya. But I am concerned now after we 
have thrown the first stone what is our next step. I read this 
morning where Ghadafi is taking back some of the cities, and I 
was just wondering if you can comment on that.
    And I wonder if you could comment on the foreign affairs 
ambassador that defected or is in France, I think it is. Can 
you just comment on that? And if we have any information from 
him that will help us make a decision going down the line.
    Thank you very much.
    Chairman Ros-Lehtinen. Thank you, Mr. Sires.
    Mr. Marino of Pennsylvania.
    Mr. Marino. Thank you, Madam Chair. Nothing.
    Chairman Ros-Lehtinen. Thank you.
    My other Florida colleague, Frederica Wilson of Florida, is 
recognized.
    Ms. Wilson of Florida. Thank you, Madam Chairman.
    It is very interesting to me to have listened to so many 
people urge the President to establish a no fly zone, to do 
something. There is a genocide in the making. We must do 
something. And then when he did something, the same people who 
urged him to do something are criticizing him.
    I think that when he consulted with the leaders of 
Congress, which I am sure I heard that he did, I do not think 
this is unprecedented. I think this has happened before. And I 
think that he is the Commander in Chief, and at some point in 
his administration in every Commander in Chief's 
administration, they must make decisions that benefit the 
greater good of the country--of the world without having the 
opportunity to get permission, as we call it. So on March 17th 
when Ambassador Rice explained the U.S. vote in favor of 
Resolution 1973 stating that the Security Council----
    Chairman Ros-Lehtinen. Thank you.
    Ms. Wilson of Florida [continuing]. By stating that the 
Security Council had responded to the Libyan's people cry for 
help, the Council's purpose is clear to protect innocent 
citizens.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Ms. Wilson.
    Pleased to yield to Mr. Fortenberry, the vice chair of the 
Subcommittee on Africa, Global Health, and Human Rights.
    Mr. Fortenberry. Thank you, Madam Chair, for holding this 
hearing.
    You know, the United States is constantly called upon to 
fix every measure of conflict throughout the world, and this is 
due to the generosity of the American taxpayer, the 
philosophical ideals that govern us. It is very difficult for 
us to stand by and watch humanity be slaughtered before our 
eyes. A third fact is that we are a unique and exceptional 
super power.
    So, in order to understand where we are now, we ought to 
look back just a few short weeks when the United States was 
being pressured to unilaterally implement a no fly zone by the 
international community and within this body as well. And once 
the British and French, particularly, stopped pontificating, 
were willing to put up their own assets, that then empowered 
the United States to be a part of an international coalition 
that is achieving some success now.
    With that, I know there are questions remaining about 
notification to Congress and the scope and duration of this, 
but questions also remain as to the robustness of the Arab 
League commitment. It was very important to get that 
affirmation up front, but we need to know what type of assets 
they are going to put up.
    Ultimately, Libya must be controlled, the outcome, by 
Libyans, North Africa must be controlled by North Africans. 
Where is the African Union? Where is the Arab League in terms 
of commitment to resources?
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much.
    And lastly, Mr. Murphy of Connecticut.
    Mr. Murphy. Thank you very much, Madam Chair.
    I take faith in the President's promise that we are not 
going to engage in a third large scale intervention, but I do 
think that there are some important lessons that we can learn 
from the mistakes made in the communication between the 
administration and Congress with respect to Iraq and 
Afghanistan. We need to talk about cost, and we need to be 
honest about it. And I appreciate the administration putting 
numbers on the table so soon, but we need to make sure that 
those are worst case numbers as well as best case numbers.
    And though I want clear objectives, I also want to be 
honest about the fact that terminology and explanations often 
are much more nuanced then are presented to Congress. And I 
appreciate both in the President's speech and in briefings that 
have been given to Congress I think there has been some honesty 
about the complexity of our objectives and the complexity of 
measuring outcomes. I think that if that kind of honest talk 
continues, it makes it a lot easier for us to judge whether 
this is an engagement worth continuing investment.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, sir.
    And now we are fortunate to have before us the U.S. Deputy 
Secretary of State, Mr. James Steinberg, who has just been 
named, as we had heard, dean of the Maxwell School of 
International Affairs, and university professor for social 
science, international affairs and law at Syracuse University. 
Best wishes, Mr. Steinberg, on your future endeavor.
    He has had a long and distinguished career. He served as 
dean of the Lyndon B. Johnson School of Public Affairs at the 
University of Texas and as vice president and director of 
Foreign Policy Studies at the Brookings Institute.
    He also served as Deputy National Security Advisor to 
President Clinton and held a number of positions at the State 
Department including Chief of Staff, Director of Policy 
Planning and Deputy Assistant Secretary for Analysis in the 
Bureau of Intelligence and Research.
    He has written numerous books and articles, and holds a BA 
Harvard and a JD from Yale.
    And I would like to thank you for your help in securing the 
freedom of three journalists who had a direct link to my area 
in South Florida. Thank you for taking my call, and so many 
calls about their predicament. Thank you for your help in 
making sure they got home safety.
    Mr. Steinberg, you are recognized.

     STATEMENT OF THE HONORABLE JAMES B. STEINBERG, DEPUTY 
              SECRETARY, U.S. DEPARTMENT OF STATE

    Mr. Steinberg. Well thank you, Madam Chairman. And thank 
all of you for the kind personal words. And I am working on the 
winter wardrobe, and looking forward to those wonderful winters 
in Syracuse, but also the beautiful springs, summers and falls.
    I am grateful for the opportunity to meet with the 
committee to update you on developments in Libya and to answer 
the important questions that you all have raised this morning 
and in other discussions. I will not cover them all in my 
opening statement, but I look forward to them in the rest of 
our discussions.
    And I want to begin by echoing a sentiment that so many of 
you have echoed, which is our gratitude toward the men and 
women who are serving the country so bravely and so skillfully, 
as they always do.
    In a speech on Monday night, President Obama laid out our 
goals and strategy for Libya and the wider Middle East. On 
Tuesday, Secretary Clinton met with our allies and partners in 
London, as well as representatives of the Libyan Transitional 
National Council, and yesterday she and Secretary Gates briefed 
members of both the House and the Senate. And I am going to 
take this opportunity today to underline their comments and to 
continue the valuable exchange between the administration and 
Congress that has been ongoing since shortly after Colonel 
Ghadafi's regime began to resort to violence against its own 
people.
    Let me begin by reviewing why we are a part of this broad 
international effort. As the President said, and I quote, ``The 
United States has played a unique role as an anchor of global 
security and as an advocate for human freedom. When our 
interests and values are at stake, we have a responsibility to 
act.''
    This crises began when the Libyan people took to the 
streets in peaceful protest to demand their universal human 
rights and Colonel Ghadafi's security forces responded with 
extreme violence. The U.N. Security Council acted by 
unanimously approving Resolution 1970 on February 26th which 
demanded an end to the violence and referred the situation to 
the International Criminal Court while imposing a travel ban 
and asses freeze on the family of Ghadafi and Libyan Government 
officials. Rather than respond to the international community's 
demand for an end to the violence, Ghadafi's forces continued 
their violence.
    With this imminent threat bearing down on them, the people 
of Libya appealed to the world for help. The Gulf Cooperation 
Council and the Arab League called for the establishment of a 
no fly zone. Acting with our partners in NATO, the Arab World 
and the African members of the Security Council, we passed 
Resolution 1973 on March 17th which demanded an immediate 
cease-fire including an end to the current attacks against 
civilians, which it said might constitute ``crimes against 
humanity,'' imposed a ban on all flights in the country's 
airspace, and authorized the use of all necessary measures to 
protect civilians and tightened sanctions on Ghadafi's regime. 
As his troops pushed toward Benghazi, a city of nearly 700,000 
people, Ghadafi again defied the international community 
declaring, ``We will have no mercy and no pity.'' Based on his 
decades-long history of brutality, we had little choice but to 
take him at his word. Stopping a potential humanitarian 
disaster of massive proportions became a question of hours, not 
days. And so we acted decisively to prevent a potential 
massacre.
    All of this has been accomplished consistent with President 
Obama's pledge to the American people that our military role 
would be limited, that we would not put ground troops into 
Libya, that we would focus on our unique capabilities on the 
front end of the operation and then transfer responsibility to 
our allies and partners. The President defined the military 
mission succinctly at the outset, and in his words, ``The 
international community made clear that all attacks against 
civilians had to stop: Ghadafi had to stop his forces from 
advancing on Benghazi; pull them back from Ajdabiya, Misrata, 
and Zawizya; and establish water, electricity and gas supplies 
to all areas. Finally, humanitarian assistance had to be 
allowed to reach the people of Libya.''
    As we meet this morning, the North Atlantic Council with 
coalition partners fully at the table, has taken on full 
responsibility for the United Nations-mandated action against 
Libya, that includes enforcing a no fly zone, policing an arms 
embargo in the Mediterranean, and carrying out targeted air 
strikes, as part of a U.N. mandate ``to take all necessary 
action'' to protect civilians.
    As NATO assumes command and control of military operations, 
we are confident the coalition will keep the pressure on 
Ghadafi's remaining forces until he fully complies with 
Resolution 1973. And we will support our allies and partners in 
this effort.
    We became involved in this effort because, as the President 
said on Monday night, we have an important strategic interest 
in achieving this objective. A massacre could drive tens of 
thousands of additional refugees across Libya's borders, 
putting enormous strains on the peaceful, yet fragile, 
democratic transitions in Egypt and Tunisia. It would undercut 
democratic aspirations across the region and embolden 
repressive leaders to believe that violence is the best 
strategy to cling to power. It would undermine the credibility 
of the Security Council and our ability to work with others to 
uphold peace and security. That is why the President concluded 
that the failure to act in Libya would carry too great a price.
    Many have asked, and many of you this morning have asked, 
why Libya and not in other cases; why where we have seen forced 
use against civilians? Again, as the President said on Monday, 
in this particular country, Libya, at this particular moment we 
were faced with the prospect of violence on a prolific scale. 
We had a unique ability to stop that violence, an international 
mandate for action, a broad coalition prepared to join us, the 
support of Arab countries and a plea for help from the Libyan 
people themselves. We had the ability to stop Ghadafi's forces 
in their tracks without putting American troops on the ground.
    If I may, Madam Chairman, just briefly want to address 
three non-military elements of our strategy.
    First, on the humanitarian front, we are working with NATO, 
the EU and the U.N. and other international organizations to 
get aid to people who need it. The United States Government has 
provided $47 million to meet humanitarian needs.
    The second track is to continue ratcheting up pressure and 
further isolate Colonel Ghadafi and his associates. The 
Contract Group on Monday sent a strong international message 
that we must move forward with a representative democratic 
transition and that Ghadafi has lost legitimacy to lead, and 
must go.
    But President Obama has been equally firm that our military 
operation has a narrowly-defined mission that does not include 
regime change. If we tried to overthrow Ghadafi by force, the 
coalition could splinter. It might require deploying U.S. 
troops on the ground and could significantly increase the 
chances of civilian casualties. As the President said, we have 
been down this road before and we know the potential for 
unexpected costs and unforeseen dangers.
    The approach we are pursuing in Libya has succeeded before, 
as we saw in the Balkans. Our military intervention in Kosovo 
was also carefully focused on civilian protection and not 
regime change.
    Chairman Ros-Lehtinen. Thank you, Mr. Secretary. I think 
we'll get to your other points in the questions.
    Mr. Steinberg. Could I just finish this last point, Madam 
Chairman?
    Chairman Ros-Lehtinen. Yes.
    Mr. Steinberg. Because I know that members are interested. 
Because I want to remind us that though the military operation 
in Kosovo ended with the end of the humanitarian crises and the 
withdrawal of forces, we kept the pressure on and 1 year from 
the time that the military operation ended, Milosevic deposed 
and on his way to The Hague.
    [The prepared statement of Mr. Steinberg follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you, sir.
    Last night the regime's former Intelligence Chief and 
Foreign Minister defected, as some members had pointed out. 
Will the U.S. Government question him or any other former 
regime member about the attack over Lockerbie, Scotland that 
killed hundreds of Americans? Americans, including my 
constituent John Binning Cummock, are demanding answers and 
this man has them. Have any of these former officials been 
deposed by the Department of Justice? What is the plan going 
forward to get information from them about that attack?
    And if I could remind the Secretary to please respond to 
the letter delivered to her by the families of Pan Am 103, 
including my constituent Victoria Cummock.
    Mr. Steinberg. Well thank you, Madam Chairman. I think, as 
you know, Secretary Clinton has taken a very strong personal 
interest in Pan Am 103 victims. It has been very close to her 
personally and she has a peak commitment there.
    And, as I think you know, the Department of Justice has a 
considerable interest in a number of these issues. Because 
there are ongoing investigations, I am not in a position to 
comment on them, but the Department of Justice is very actively 
involved in reviewing that and seeing whether there are actions 
that it needs to take.
    We obviously take this decision by the Libyan Foreign 
Minister very seriously. It is an indication that some of the 
efforts that we are making to try to put pressure on the 
regime, can be successful. And I think while we should not 
overstate the significance of this, we should not also 
understate the fact that someone with such a long association 
with the regime has seen that there is no future there.
    The British are beginning to question him. This is, 
obviously, a development of less than 24 hours so I can't say 
in more detail. But we take the point that you have raised and 
it is something that we take as an obligation very seriously.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Berman is recognized.
    Mr. Berman. Well thank you very much, Madam Chairman.
    Just because so many members raised this whole issue of 
constitutional authority, War Powers authority, I want to take 
just a little bit of my time to at least throw out my 
perspective on all this.
    This is not the first time this issue is in front of us. 
And I am sure Congressman Rohrabacher, who was working for the 
Reagan administration at the time, remembers Lebanon, remembers 
Grenada, remembers Panama and I could cite 20 other instances 
where U.S. forces entered conflict without any vote of 
Congress. And in the early '70s Congress intended to come to 
grips with that by passing and by overriding a President's 
veto, the War Powers Act. There is a tension here because no 
President has ever accepted the constitutionality of the War 
Powers Act, but what Congress did when they passed that was to 
recognize there will be situations, and this was a classic case 
of one, where action had to be taken before Congress could 
authorize that action. And do not think there was plenty of 
time given the position that the administration had, and I 
think rightfully so, that they were not going to unilaterally 
impose a no fly zone. This was going to be either a coalition 
effort or it was not going to be, and it was going to be 
sanctioned by the Security Council or it was not going to be.
    So, so far the President has complied not in his words 
``pursuant to the War Powers Act,'' but consistent to the War 
Powers Act with what he is supposed to do with Congress. The 
test will really come 60 days from the date this started, the 
conflict started when if there was no authorization for the use 
of force, in this particular conflict. And what the President 
does then, I do not know because once again, no President has 
accepted the constraints imposed by the War Powers Act and 
there has never been an ability to litigate it because no court 
will give standing to this battle between two different, the 
congressional branch of Government and the executive.
    So, let us put this is a historical context when we start 
leveling charges about what the administration did and the role 
of Congress. By passing the War Powers Act we accepted the 
premise there were going to be situations where this would 
happen. And under the provisions of Section 5 of that Act, the 
time will come and on any given day the Speaker of the House, 
the leaders of the Senate could schedule for a vote, an 
authorization or a denial of authorization for this if they 
chose to do so.
    So, let us look inward before we level too many charges 
outward.
    Now, in my last minute let me ask you: (1) Given the 
position of the present world leaders that Ghadafi must go, 
should we not recognize the Transitional National Council, as 
the French have done, to help create the facts on the ground 
that Ghadafi is no longer Libya's leader? Would that not be 
consistent with our statements and encourage other nations to 
do so as well further isolating Ghadafi and sending a message 
to his supporters or those sitting on the fence that they 
should abandon him?
    And finally, if you have a chance in that minute you will 
have left, the Misrata issue that I raised in my opening 
statement?
    Mr. Steinberg. Well, thank you, Mr. Berman. And I am sure I 
will have an opportunity to discuss the issues you raised in 
terms of the authorities in the courses of conversation so I 
will go directly to your questions.
    First, with respect to what the Transitional National 
Council. I think we have deepened our engagement with them, we 
have had a great deal of contact with them. We are in the 
process of sending a special representative to meet with them 
in Eastern Libya. We obviously want to be supportive of the 
efforts of those who are trying to achieve democracy there. At 
the same time, we need to understand better about who they are 
and what their aspirations are.
    We very much welcome the statements they have made in the 
last couple of days, both in making their commitments to 
democracy and the very strong condemnation they have made and 
disassociations with al-Qaeda that they made yesterday, which 
is a very positive sign. But before we move forward to formal 
recognition, I think it is important for us to have a better 
understanding of their goals, objectives, their 
representativeness and the like.
    In Misrata we have had some success in achieving some 
humanitarian access, and it is an important objective. There 
have been ships that have gotten in by sea, but it is something 
that we continue to pursue.
    Chairman Ros-Lehtinen. Thank you very much.
    And acting with the consent of the ranking member, I would 
like to engage in a colloquy version of the authorization 
query. Mr. Deputy Secretary, the committee would like to make a 
request of you on a different issue. As part of the budget 
authorization process the Department has frequently provided 
the committee with draft legislative language for the changes 
in statutory authority that it is seeking, as well as 
supporting explanations and information. I would like to ask my 
good friend, the ranking member, if he would he join me on the 
record today in asking the Department to convey any such 
request to us as soon as possible so that we can give them 
adequate consideration as part of the State Department 
authorization process?
    Mr. Berman. And the answer is I am happy to join you in 
that request. I think that is the committee's responsibility 
and this information is critical to being able to perform our 
function.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    And, Mr. Steinberg, can you commit to us that the 
Department will at least let the committee know within the next 
week whether or not any request for new or changes in existing 
statutory authorities will be forthcoming, even if they have 
not yet been finalized?
    Mr. Steinberg. Well, thank you, Madam Chairman.
    With that understanding, because I am not sure that we will 
have all the detail present, but we certainly can give you a 
basic sense of what we will be looking for.
    Chairman Ros-Lehtinen. That would be so helpful. Thank you, 
Mr. Steinberg.
    Thank you, Mr. Berman.
    With that, I turn to the chairman of the Subcommittee on 
Africa, Global Health, and Human Rights, Mr. Smith of New 
Jersey.
    Mr. Smith. Thank you very much, Madam Chair.
    Thank you very much Deputy Secretary Steinberg for your 
testimony.
    I agree no ground troops, but frankly, why tell Ghadafi?
    Secondly, when we first initiated military action, did we 
know who the rebels were and their plans for a post-Ghadafi 
Libya, especially as it relates to human rights, rule of law, 
and democracy?
    Third, are the rebel fights defined civilians as in the 
relevant U.N. Security Council resolutions authorization of 
force?
    And how is bad weather affecting the ability to deploy our 
air power?
    And finally, given the fact that Ghadafi has engaged in 
international terrorism, obviously we all know how horrific the 
consequences of that has been, what is his current ability to 
strike at our interests outside of Libya? Does not his ability 
to use asymmetric means to hit back at us increase the longer 
he remains in power?
    Mr. Steinberg. Thank you, Mr. Smith, for those very good 
questions.
    First, on the no ground troops issue. I certainly 
understand your point, and having grappled with this issue in 
the context of the questions a decade ago, I appreciate the 
point behind that.
    I believe this is a slightly different set of 
circumstances, in part because of the very strong conviction of 
our partners in the Arab League and the neighbors about the 
risks associated with having U.S. forces on the ground there. 
And I think it is very important that as a part of our overall 
strategy that we have tried to make sure that this is a 
humanitarian intervention, that this is one that has broad 
support, and this is not somehow an set of outsiders.
    So, understanding that normally we do not like to preclude 
these things, I think that there is a compelling case in this 
one instance, and I do think it has broad support among the 
American people. So, I think we could make the case while it 
may not generally be the right way to go, that in this case it 
was justified.
    Mr. Smith. If the Secretary would yield on that? So that 
nothing would preclude an Arab force or some other hybrid 
force, AU whatever it might be, from going in?
    Mr. Steinberg. There is language in the Security Council 
resolution that talks about occupation forces, and one could 
have a discussion about what that constitutes. But I think that 
at least our decision is based on our own national policy 
decision.
    In terms of knowing who they are, I think it is important 
to understand that we did not intervene explicitly on the side 
of the Transitional National Council. We intervened to prevent 
this humanitarian catastrophe. But at the same time as part of 
a broader strategy, we do want to see an inclusive democratic 
transition take place. And we are hopeful that the Transitional 
National Council can be the core of something that leads to 
that barter group. I think the Council itself would recognize 
that it does not fully represent all the people of Libya and 
that if we are going to move forward, it needs to be more 
inclusive.
    We have been very concerned about the issue of human rights 
and those assurances that you have been seeking, Congressman, 
and you have a long commitment to that. That is one of the 
reasons why we engage very closely with them and are very 
encouraged by the statements they issued both Monday in London 
and then yesterday, both with respect to their commitment on 
democratic transformation inclusiveness and respect for human 
rights and their strong condemnation of terrorism in general, 
and their distancing themselves from any association with al-
Qaeda. These are obviously important commitments. We have to 
make sure that they are being honored in the fact as well as 
the words. But I think as several of you have said, the more we 
engage with them, I think the more influence we are likely to 
have. And that is one of the reasons why I think it is 
important that we engage.
    And while, as I mentioned to Congressman Berman, we are not 
at the stage where we think recognition is desirable, we have 
deepened our engagement with them including sending a 
representative on the ground.
    On bad weather and the military operations. I have long 
since learned that I would prefer to defer to my military 
colleagues on that, except to say that operations do continue. 
I did check-in just before we came, and the operations even as 
we move forward with the transition, that these efforts are 
underway.
    Mr. Smith. On the issue of the terrorism and his ability to 
strike?
    Mr. Steinberg. Yes. Obviously, it is something that we are 
concerned about. We know the past record and one cannot dispute 
this. Obviously, that is one of the reasons why we think it is 
important for this transition to take place and why we believe 
at the end of the day that Ghadafi should go.
    Mr. Smith. Just finally, I remember reading the book Sun 
Tzu's ``The Art of War.'' He made a very powerful statement, 
many of them, one of them, ``Let your plans be dark and as 
impenetrable as night and when you move, fall like a 
thunderbolt.''
    And when the President said all options are on the table, 
obviously the Intelligence Committees and key Members of 
Congress need to know. And I think there is no support for 
ground troops, I certainly do not support it, but again telling 
Ghadafi, I think may unwittingly, and I mean that, unwittingly 
convey to him that he has other options and he is not as at 
risk as he might otherwise be. So, you know just going forward 
I would hope the key Members of Congress, especially the 
Intelligence Committee and the leadership be apprised, but for 
a short period of time some ambiguity might be helpful to 
ensure his demise.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith.
    Mr. Ackerman, the ranking member of the Subcommittee on the 
Middle East and South Asia is recognized.
    Mr. Ackerman. Thank you, Madam Chair.
    I find it interesting that we are in favor of killing 
Ghadafi, but we do not want to be there when we kill him.
    I continue to be troubled as I listen to some of our 
colleagues both in this room and outside of the room. And I 
welcome some of our friends to the newly found and newly 
discovered by them question of the War Powers Act. It is an 
interesting piece of work. But I wonder where those questions 
were, and to be clear I supported my President when we went to 
war in Iraq. But where were those questions from some of our 
friends who newly discovered the Constitution about that war? 
Where were the statements about the clarity of the mission when 
we engaged in that? Where are the demands for the end game?
    We are 8 years into that war, over 8 days, and nobody then 
and for 8 years demanded to know what the end game was. And it 
is interesting 8 days, 8 days into the action in Libya they are 
making the demands about where the end game.
    More people died in Iraq in the past couple of weeks then 
in Libya and yet the questions are asked under this President's 
action then they were during any previous President that I can 
remember.
    The War Powers Act is vague. It does not answer all the 
questions. War does not answer all the questions when you start 
it. You do not know the answer to any of the questions until it 
is over, and sometimes you do not know when it is over.
    Nobody has tested the War Powers Act, the constitutionality 
of it is being argued but not in the courts, and deliberately 
so. And sometimes we have to understand that laws are sometimes 
written with deliberate ambiguity so that we have some 
flexibility to act in situations that we cannot fully 
understand when things begin.
    Maybe we need a different definition of war; I do not know. 
Is it war when you are fighting on behalf of the people of a 
country and against its leader when you are not against the 
country, when you do not want to defeat a country, when you do 
not want to defeat its people but you want to help them 
liberate themselves from a corrupt, brutal and dictatorial 
leadership? Is that a war?
    Was France at war with England when so many there decided 
that their government's policy and its citizens would be 
supportive of the American revolutionaries instead of the 
oppressive king? I think not.
    But if you think further about it, you know if a bomb 
dropped by a foreign government falls on your house, is it a 
war or just an intervention?
    And maybe we do not want to define war, and maybe we are 
not in one. But we have to give these things some thought as we 
think about the policy.
    And why Libya? A lot of my friends thoughtfully ask the 
question why of all the countries involved in the region, are 
we going to get involved in every single one of them?
    If you are approached on the street by somebody asking you 
for a few cents and has their hand out, and tells you their 
story and they are in need and you are trying to figure out 
whether or not to reach in your pocket and help or not because 
there are so many beggars out there to help. But if suddenly 
all of the street people say to you, ``Help that one,'' maybe 
you have to take a look at that. And this is the first time 
that I can think of when not just one Arab nation, but the 
entire Arab League, which seems to be in a little bit of 
difficulty on every individual basis, says to you ``Help that 
one,'' maybe there is cause for the exceptionalism that the 
President has indicated here.
    So, I want to thank him, and you, and the administration 
for taking the actions that they are taking. I mean, this is 
dictator in that country who has threatened no pity and only 
brutality to those who oppose him, we have heard that before. 
Had only Roosevelt at the outset and during World War II 
stepped up to the plate with the moral clarity and intervened 
when another dictator was annihilating people by the thousands 
and millions, maybe 1 million or millions of innocent people 
would not have been slaughtered.
    Chairman Ros-Lehtinen. Thank you, Mr. Ackerman.
    Mr. Ackerman. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Mr. Burton, chairman of the 
Subcommittee on Europe and Eurasia.
    Mr. Burton. First of all, in answer to my good friend Mr. 
Ackerman, Congress approved going into Iraq before we went into 
Iraq.
    Now let me read what the War Powers Act says. The War 
Powers resolution states:

          ``That the President's powers, as Commander in Chief, 
        to introduce U.S. forces into hostilities or imminent 
        hostilities can only be exercised pursuant to:
          (1) A declaration of war;
          (2) Specific statutory authorization, or;
          (3) A national emergency created by an attack on the 
        United States or its forces.''

    It requires the President in every possible instance to 
consult with Congress before introducing American armed forces 
into hostilities or imminent hostilities unless there has been 
a declaration of war or other specific Congressional 
authorization. None of that happened and yet we are spending 
hundreds of millions of dollars, and probably billions of 
dollars involved in this conflict. And my concern is, and I 
hope you will answer this, Mr. Secretary, why are we not in the 
Ivory Coast? Thousands of people are being killed everyday by a 
leader who was thrown out of office and will not leave because 
there was a democracy move and he is still there, and he is 
killing people every single day. Now why is that not as 
important as what is going on in Libya?
    And I would like to know, and this has been brought up a 
couple of times, how many of these citizen soldiers fighting 
against Ghadafi, how many are people who are tied in with 
terrorist organizations that killed Americans in Iraq and 
Afghanistan, and do we know who they are? Do we have any idea?
    The Secretary of State when asked this question a couple of 
days ago said, ``Well, we do not know all the players. We are 
looking into it.''
    It is a heck of a situation when we go into conflict and we 
do not know who we are supporting. I mean, this could be the 
Muslim brotherhood, it could be al-Qaeda, it could be Taliban, 
it could be a combination of all three, and we really do not 
know. And we have not decided whether or not we are going to 
give arms to these people. Will we be arming people who do not 
have our interests at stake? The whole northern Africa and in 
the Middle East, the Persian Gulf, the Suez Canal, the Straits 
of Hormuth, the Gulf; all of that is in an uproar right now. 
How far do we go and where do we go next, and why is not the 
Congress consulted in advance? The War Powers Act, in my 
opinion, is very, very clear on this.
    And then we talk about the Arab League. You know, Saudi 
Arabia gets so much money from us it is not even funny, and 
many of the other Arab countries are well healed. Why can they 
not pay for this and if they are not paying for this, why not? 
And if they are paying for it, how much are they kicking in or 
is the American taxpayer on the hook for all of it, along with 
maybe some of our NATO allies?
    And one of the things that concerns me since we are going 
to try to be antiseptic about this and make sure we do not kill 
any civilians, we are just after the bad guys, well if Ghadafi 
has got control of cities and he is moving into cities when the 
crowds are overhead and we cannot impose the no fly zone, we 
have Ghadafi soldiers in among the civilians. How are you going 
to get them out? You are not going to get them out by dropping 
bombs on them without killing civilians. There is no question 
civilians will be killed. So what do we do? Do we support boots 
on the ground? Is France and Britain and other of our NATO 
allies going in there? And ultimately, will we go in there?
    All of these are questions that should have been looked 
into before we went into this conflict. And, you know there are 
a lot of we can go to war if we really want to. But we got a 
war in Afghanistan, we just finished in Iraq; that is still 
problematic in a lot of people's minds. And we do not have the 
money to do all these things.
    We have a $14 trillion national debt. We are sinking in red 
ink. We are $1.4 trillion in the debt this year. We cannot 
reach an agreement with the Senate right now on cutting 
spending of $61 billion and I see that there is going to be a 
compromise of $33 billion and we got a $1.4 trillion deficit 
this year. This country is in big trouble and we do not need to 
buy more trouble by getting into a conflict that is not 
necessary and in our national interest.
    I do not see Libya as in our national interest. Obviously, 
we want to protect civilians and people who are being killed, 
innocent civilians. But how do you pick and choose? And why are 
we not in places like the Ivory Coast or Syria, or elsewhere? 
These are questions that need to be answered and should have 
been answered before we went into this, and Congress should 
have been consulted, the War Powers Act in my opinion is very 
clear on this.
    Chairman Ros-Lehtinen. Thank you. Thank you very much, Mr. 
Burton.
    Mr. Payne, the ranking member on the Subcommittee on 
Africa, Global Health, and Human Rights.
    Mr. Payne. Thank you very much.
    As I indicated before, I commend the President for waiting 
until there could be a consensus with the Europeans and for the 
Arab League for the first time to ask the west to intervene I 
think is something that we keep losing the importance of that.
    Just about Ghadafi in general. You know, I think that his 
intimidation of many African leaders over the years have kept 
them quiet. As a matter of fact, though, if you want to put his 
hand on a dastardly group. Was Charles Taylor who went into 
Sierra Leone and got together with the group the RUF who were 
chopping off hands of women and children to get the blood 
diamonds. And so Charles Taylor is a direct result of Ghadafi, 
so I am not so sure that African leaders really have that much 
of a real appreciation for Ghadafi.
    They talk about the fact that we do not know who the 
persons are. I met with former Ambassador of Libya Aujali and 
he gave me the names of the 27 people who were in the 
provisional government at that time who are leading the 
discussions for Libya. So the governing group is not a total 
mystery. Many people who have been imprisoned by Ghadafi in the 
past are a part of the group.
    All of a sudden al-Qaeda comes up. I am not so sure that 
al-Qaeda is in Libya, but you throw that up and that sends a 
red flag to say that we need to be careful.
    I think we do need to be careful, but there will have to be 
somebody on the ground to combat Ghadafi's troops. And it is 
going to have to be Libyans. I think if they are trained and 
are equipped, and they have the will to fight because they are 
fighting for their freedom that they have been suppressed for 
decades and decades. And so I think that the liberation persons 
will really have an opportunity because I also believe that 
there will be deflections from the military of Libya.
    I have a question, though, about the behavior of some of 
the liberation people as relates to sub-Saharan Africans. As 
you know, there are black Africans that work in Libya. It has 
been alleged that there were some mercenaries that were 
forcibly brought into Libya by Ghadafi. I question how many 
there are because Ghadafi's forces are strong enough without a 
sort of ragtag group of mercenaries from sub-Saharan Africa. 
However, the liberation people have taken out on black Africans 
who are workers in Libya and have threatened them and have 
brutalized some of them. Some of them are afraid to go to the 
hospital because they think that they might get killed in the 
hospital. So I wonder whether our Government is looking into 
the liberation people, so called good guys, who are taking out 
black workers in Libya and also actually blacks who live in 
Libya who are Libyans because of the rumor about the 
mercenaries that are there. Do you have any light on that? And 
if we could have any message to the rebel groups, that we 
should say that we do not think that this is right?
    Mr. Steinberg. Thank you, Congressman Payne.
    We are aware of, of course, that along the lines you have 
discussed. I do not think we can confirm it, but because in 
general we would not want to see that happen, we have made 
clear to the Transitional National Council that we would 
concerned about that and that they need to do a very good job 
of demonstrating that they are not like Ghadafi and that they 
do provide human rights and decent treatment to all people 
involved.
    More broadly, we have been concerned about the possibility 
that Ghadafi would seek to use mercenaries. Again, there is 
conflicting reports about how many or how important it is. But 
we have been working with a number of countries in the region, 
particularly from Africa, to try to dissuade them and 
discourage providing mercenaries.
    If I could, just because of your longstanding interest in 
that, but I would like to say a word about Cote d'Ivoire too in 
answer to Congressman Burton because we are very deeply 
involved in that. As many of you know, the U.N. Security 
Council just passed a new resolution on Cote d'Ivoire. We have 
been a leader in recognizing President Ouattara and working 
with ECOWAS, the West African countries, and AU to see that 
transition move forward.
    Unlike Libya, however, we have not seen a call by the 
African regional organizations or sub-regional organizations 
for military engagement. So we have different tools for 
different circumstances, but that does not mean that we are not 
engaged and we are not supportive of that democratic 
transition.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Rohrabacher, the chairman of the Subcommittee on 
Oversight Investigations is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    And I apologize. I have been having to run back and forth 
between two hearings that are significant. And if I cover a 
question that has already been asked, I apologize.
    Let me get to the cost. I have made several contacts with 
the Transitional National Council and those revolutionaries who 
are trying to free themselves from the Ghadafi tyranny. And, in 
fact Omar Turbi who is right here, just returned from Libya and 
was meeting there with the Transition. Thank you, Omar. And he 
assures me as well as some of the other contacts that I have 
had, that the Council has agreed that they will pay all of the 
cost of American operations in support of their efforts to free 
themselves from the Ghadafi dictatorship. What is your 
understanding about that?
    Mr. Steinberg. Congressman, I have not heard anything 
specifically to that point, but we have had positive 
discussions about them about their support for what we are 
doing and trying to make this a success for all of us.
    In general, we have taken the position that the assets that 
have been frozen are for the benefit of the Libyan people, and 
so we are there to be a democratic transition and that will be 
a decision that they make.
    Mr. Rohrabacher. All right. Let me ask you specifically: 
The administration does support, does it not, or maybe you can 
tell me they are not at this point supporting the principle 
that if we are helping the people of Libya free themselves from 
Ghadafi dictatorship, that they will repay us?
    Mr. Steinberg. I think, Congressman, we would welcome a 
representative government from Libya taking that position.
    Mr. Rohrabacher. All right. And the American people will 
also welcome that. And let us note that one of the things that 
tears at the heart of the American people is that when we get 
involved in things like this, quite often we feel that the 
country that we are helping or the people that we are helping 
are not grateful to us. And whether it is Omar or others who I 
have been talking to, it is very clear that those people are 
struggling against Ghadafi today in Libya are grateful that the 
United States is playing a positive role toward their effort to 
free themselves.
    As I mentioned in my 1-minute opening statement, this is 
not unlike the Reagan Doctrine. We are not sending troops 
overseas to do the fighting for other people who are trying to 
win their freedom. We ended the Cold War during the Reagan 
years, and I might add, did not have bipartisan support in many 
of these cases, where we were supporting those elements that 
were fighting for their own freedom against communist tyranny. 
Well radical Islam now threatens the peace of the world and the 
freedom of people throughout the world. And I might add, by 
being involved with people who are fighting for their freedom, 
we are at least lessening the impact of radical Islam, if not 
offsetting it in important situations like this. Maybe you 
could expand on that?
    Mr. Steinberg. Well thank you, Congressman.
    First of all, thank you very much for your support. It is 
obviously very much appreciated.
    And second, I think as you said, I think there is a strong 
sentiment that there are a real resonance among the Libyan 
people. It is only anecdotal, but I think all of us were very 
touched by the way in which our two downed pilots were treated 
when they were supported and helped by the people who they were 
trying to help. And I think that is a real reflection of the 
recognition of what we are trying to do here.
    I think that as we go forward this is an important set of 
principles. And we have made clear, first, that we do expect 
and work to the Council and new representative government to 
reject extremism, to reject terrorism. And the statement that 
the Council made yesterday was a very welcome and very explicit 
and very clear statement.
    Mr. Rohrabacher. And if we were not engaged, for my fellow 
colleagues who seem to be trying to suggest that American 
should not be engaged or at least are engaged in nitpicking 
themselves in terms of finding things wrong with what the 
administration has done; if we were not engaged, there would be 
no motive for those people on the ground to confront radical 
Islam on sight? Right now they know if al-Qaeda or any of these 
other operatives who hate the west as much as they hate 
Ghadafi, there would be no reason to confront their influence 
if it was not for the United States there helping. So, I would 
hope that we understand that this is in our interest, as it 
always is in the interest of the American people to stand with 
those people who are struggling for freedom and a democratic 
government. However, it is not in our interest to send our 
troops all over the world.
    I am sure this has been covered before, but maybe you could 
reassure me that we have no plans to send American combat 
troops. And let me note, Ronald Reagan built up our military 
forces, but rarely did he dispatch them into any type of combat 
zones around the world. Instead, we supported those people who 
were fighting for their own freedom. Is this going to be the 
case with this administration?
    Mr. Steinberg. Again, certainly we reiterate the presence 
of we have no plans or intention to put ground troops in Libya.
    Mr. Rohrabacher. And if you do, we just note you will lose 
the support of many of us who are now supporting your efforts 
if your plans include sending combat troops an putting them on 
the ground in Libya.
    Thank you very much.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    And I would like to tell the members of our committee that 
the Japanese Ambassador to the U.S. is in the side room if any 
of you would like to go and discuss the situation with the 
radiation leaks, and the terrible humanitarian crisis that his 
country is undergoing. And more than anything, he would like to 
thank the Members of Congress for the help that the U.S. has 
given to his beleaguered country.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade, is recognized.
    Mr. Sherman. I want to pick-up on Mr. Robrabacher's 
comments. Libyan assets should be used to pay the full cost, 
not the floating marginal cost of our operations.
    And I know, Mr. Steinberg, you say that this money needs to 
be held for the benefit of the Libyan people. First, I would 
think our actions are helping the Libyan people. And I see you 
nodding in agreement.
    And second, Libya at normal times produces more oil per 
capita than any country you can find on the map without a 
magnifying glass. More oil per capita than Saudi Arabia.
    Now I know if we were to seize those Libyan assets to the 
extent already expended for the benefit of the Libyan people, 
that in foreign policy circles would be considered petty and 
presumptuous. But in America, it is simply outrageous that we 
are going to hold this money and use American taxpayer dollars 
to carry out this operation. I would like you to respond to 
that for the record because I have got another series of 
questions.
    The rebels includes some very good people, the people who 
seem to be willing to embrace whatever help they can get not 
only from us but from al-Qaeda or terrorists as well. Have we 
demanded that the Libyan rebels apprehend, extradite or at 
least cease all cooperation with any of the terrorists in their 
midst?
    Mr. Steinberg. Well, Congressman, as I mentioned earlier, 
we were very appreciative of the clear statement that the 
Transitional National Council made yesterday.
    Mr. Sherman. That is a clear statement. Have they 
apprehended a single person? I mean, vague statements against 
terrorism are a dime a dozen, especially in English. Have they 
ceased cooperation with Abdel-Hakim al Hasidi?
    Mr. Steinberg. Congressman, again, looking a what we know 
we do not see signs of significant cooperation between the 
Transitional National Council and----
    Mr. Sherman. Okay. What you are saying is there is some 
cooperation?
    Mr. Steinberg. No, I am not. I am not. No.
    Mr. Sherman. Okay. What about al-Hasidi, is he incarcerated 
or is he commanding rebel forces right now?
    Mr. Steinberg. I do not----
    Mr. Sherman. Or you do not care enough?
    Mr. Steinberg. Congressman, again, I think if we want to 
get into the details, I think we could have a further 
conversation in a closed session on this. But what we can say 
publicly----
    Mr. Sherman. I brought this up in the classified briefing 
yesterday and I got no answer. And I am sure if we do another 
classified briefing, you will give me no answer.
    Mr. Steinberg. But I think we share your concern. I think 
that it is important that we have stressed this time and time 
again----
    Mr. Sherman. How do I explain to American servicemen from 
my District that those with blood on their hands, American 
blood on their hands, are fighting in Libya and we are risking 
their lives to defend those with American blood on their hands? 
How do I explain that to soldiers from my District?
    Mr. Steinberg. Congressman, as I said earlier, we are 
engaged with areas in defense of Libyan people. It is not on 
behalf of----
    Mr. Sherman. Okay. One of the Libyan people that we are 
defending is Abdel-Hakim al Hasidi. Our bombs, we are risking 
the lives of our airmen to defend that man.
    Mr. Steinberg. I cannot agree with that.
    Mr. Sherman. How do I explain that to servicemen and women?
    Mr. Steinberg. I cannot agreed with that characterization. 
We are defending the civilians in----
    Mr. Sherman. Is he not one of the civilians we are 
defending? I mean, he is the rebel commander in the Darnah 
area.
    Let me shift to another issue. I want to pick-up on Mr. 
Berman's comments because I do not think your answer is all 
that specific.
    The World Powers Act is the law of the land. Section 5 says 
that the administration cannot continue military action without 
a resolution for Congress for more than 60 days. And then if we 
do not pass such a revolution, there is a 30 day disengagement 
period. Will this administration follow that law? Yes or no, 
sir.
    Mr. Steinberg. Congressman, in my future life I will be 
spending a lot of time dealing with hypotheticals. But I do not 
know what the situation will be----
    Mr. Sherman. Is it the position of the administration that 
that law is constitutional and binding on the administration or 
not? That is not hypothetical, that is what is the position of 
the administration on a law that was passed long ago.
    Mr. Steinberg. The position of the administration is that 
we have consulted with Congress. That we have notified 
Congress----
    Mr. Sherman. I am asking about Section 5 of the law, sir.
    Mr. Steinberg. The position of the administration is that 
the action that we took in this case, which is an action----
    Mr. Sherman. Will you comply with Section 5 or will you 
simply evade my question?
    Mr. Steinberg. Congressman, it is not a question that can 
be answered in the abstract. The application of any provision 
applies----
    Mr. Sherman. There is nothing abstract here. You cannot 
guarantee that this mission is going to be over within 60 days.
    Mr. Steinberg. Again, Congressman, I think it is a question 
that cannot be answered in the abstract.
    Mr. Sherman. What is clear is that to bring democracy----
    Mr. Steinberg. Our President has certain constitutional 
powers, which he has exercised----
    Chairman Ros-Lehtinen. Thank you, Mr. Steinberg. And thank 
you as well, Mr. Sherman.
    The chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, Mr. Royce of California is 
recognized at this time.
    Mr. Royce. Thank you, Madam Chair.
    I want to get back to something that I mentioned in my 
opening statement, and that other members have mentioned here, 
and that is the cost. One of the reasons I want to get back to 
it, Mr. Secretary, is because you did not mention it in your 
opening statement, and that caught my attention.
    In London this week, Secretary Clinton mentioned that there 
was discussion about financial assistance to the transitional 
government, to the Transitional Council I think is the 
terminology you used. What is envisioned in that sense?
    Mr. Steinberg. Congressman, at this point the assistance we 
have given has been humanitarian assistance. We have given 
about $47 million in humanitarian assistance.
    On the military side, I know Secretary Gates is testifying 
this morning, and I would defer to him on what the military 
costs are.
    Mr. Royce. I have seen those figures.
    Mr. Steinberg. In terms of going forward, this is a 
conversation that we are having with the Transitional National 
Council in terms of what might be appropriate assistance. We 
made no commitments. We need to understand better what they are 
and, obviously, this is something that we will continue to 
consult with you as the opportunity emerges.
    Mr. Royce. Well, I appreciate that. But what steps is the 
administration prepared to take to facilitate access to seize 
the $33 billion in assets that Ghadafi has here, that Libya has 
here in the United States?
    Mr. Steinberg. Congressman, under the Security Council 
resolution the assets that we have frozen are frozen for the 
benefit of the Libyan people.
    Mr. Royce. Well this is my concern. I mean you have two 
ways to do that. You could facilitate access to proceeds from 
new oil sales, or you could access these assets. But let me ask 
you another question along that line.
    We have other coalition partners here; the Arab League. 
What commitment have they made? And I ask that because we are 
looking at a budget deficit $1.6 trillion for this year. We are 
borrowing 42 percent of everything that we spend here in 
Washington. This is why I was pushing early on for an 
alternative approach: Jamming his communication system, which 
we did not do at the time so that Ghadafi could not for weeks 
communicate with the troops when they were defecting rather 
than an expensive proposition--we have seen this before.
    I remember pushing jamming in broadcasting in Yugoslavia 
before the election. Milosevic came that close to being 
defeated by Panic. Had we done what was in the legislation, had 
it gone through, we could have effected the outcome. We could 
have jammed the broadcasting of Taliban radio in Afghanistan 
all of those years. We also could have done our own 
broadcasting with Radio Free Afghanistan. That legislation 
passed only after Massoud was killed.
    So what I am pointing out is a lack of understanding here 
in terms of cost effective ways to do diplomacy or to change 
governments, and there is a tendency to forget about how we are 
going to collect the check after we have left. I think we have 
proven that if we do not get that set up front, it is not going 
to happen. Could assets be used to repay the U.S. Treasury for 
war costs? I guess that is the question.
    Mr. Steinberg. I think I will answer two parts of the 
question first, because you did raise the jamming issue and I 
did not want to seem like we were avoiding that.
    Mr. Royce. Yes.
    Mr. Steinberg. What I can say in this session is that we 
are doing some of it.
    Mr. Royce. You are doing it now for weeks later.
    By the way, the former government started the broadcasting 
into Yugoslavia the day of the bombing. We started the 
broadcasting under my legislation in Afghanistan only after 
Moussoud's death and the day before the bombing. If we wait too 
late, there is a time which taken at the brink leads to a 
decisive move, especially when you are talking about jamming 
your opposition when his generals are defecting.
    The Defense Secretary said the military operations have 
been planned, I read this in the paper, on the fly. I hope this 
cost question is not being dealt with the same way. Because, 
again, that is how you get stuck with the check. And I have not 
gotten a definitive answer here that commits the administration 
to the idea that we are not going to get stuck with the check.
    Mr. Steinberg. Okay. I do want to address that part of your 
question. too.
    First of all, I very much take your point about the fact 
that while some countries are contributing by providing planes 
or other kinds of support, there is an opportunity for other 
countries that are not doing that to provide financial support. 
We are very conscious of that, and very much engaged with other 
countries to make sure that they find a way to support it.
    Mr. Royce. I think I am going to come back with the 
legislation on this.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    Mr. Royce. Because I do not have a definitive answer yet. 
And I think I will talk to Mr. Sherman on that front.
    Thank you.
    Chairman Ros-Lehtinen. Thank you. Good point.
    Mr. Meeks, the ranking member on the Subcommittee on Europe 
and Eurasia, is recognized.
    Mr. Meeks. I hope Mr. Royce got the money back from Iraq 
with costs. I heard back then that Iraq was going to pay for 
everything that we did when we entered that war. So, I hope he 
got the money back there first, and all the money that it has 
cost the American people for all of these years that we have 
been in Iraq. Amazing.
    Let me say that, first of all, as I started out in my 
opening statement the oceans do not protect us. You talk about 
American interests and we want to be safe, let us be safe if we 
do not have any allies. How can we be safe if we do not have 
anyone else working with us.
    When we were not attacked and none of our other allies were 
not attacked, we asked them to come with us to Afghanistan and 
Iraq. They cooperated with us. There are a number of our allies 
now who said we had a problem. We are supposed to be a team, we 
are a NATO unit, we need your help now. You have unique assets, 
unique capabilities so we need your help. We want you to be a 
part of this. We did not just go running into some place. And 
this is not just the United States saying it is my way or the 
highway. Because the last time we did that when somebody did 
not agree with us that we wanted to come in, we got Freedom 
Fries in the Capitol. But here's a President who is being 
deliberate, making sure that we have our allies with us so that 
as we fight al-Qaeda and we fight terrorism we have people 
because we know we need their intelligence, their help, they 
are moving because it is a threat to all of us. It is a common 
threat. So, we are working together.
    And Libya happens to be the country that our allies says we 
need to work together on, just as we asked them. So it seems to 
me to make sense that it helps the American people and we all 
share in the costs here and what our particular roles are. So 
how dare are we say it is just United States go on your own 
again, forget our allies, forget what they need, forget working 
with them, forget considering anything that they said; that is 
unilateralism. That would make the American people unsafe. That 
is exactly what the terrorists want; they want to be able to 
isolate us and to say that we are just doing whatever we want 
irrespective of everyone else.
    I am glad that this President has not done that and is 
working collectively with everyone else.
    Let me just give you the opportunity, because I think that 
you were trying to in your opening statement and you ran out of 
time, and it was actually the first question that I had on my 
mind, to talk about Kosovo and what took place there and now. I 
know there is no exact situations. And what the difference is.
    And I was just wondering what lessons could we have learned 
or did we learn from Kosovo that we could apply now so that we 
can make sure that we get rid of the guy and move on about 
having some kind of a ground work for political options in 
Libya and having something politically done? Can you tell us 
about that?
    Mr. Steinberg. Well, thank you, Congressman. And as you 
correctly guessed, that is what I was going to go on to say if 
i had a bit more time. And I know how pressed we are for time.
    But first of all, as you say, no situations are identical, 
but there are some important similarities between the situation 
in Kosovo because we did intervene there, it was done as a part 
of a coalition, it was done with NATO, it demonstrated our 
commitment to work with our allies in a situation. It was also 
a case in which we defined the military mission in the narrow 
terms, which was to stop the ethnic cleansing, stop the 
humanitarian crises that was caused by Milosevic's attacks on 
the citizens of Kosovo. But we stopped the military operation 
when the humanitarian goal was achieved and the forces were 
withdrawn. But that did not mean we said we are just going to 
leave Milosevic in place and we do not care what happens. We 
understood the risk of his continued presence there, and so we 
continued the sanctions, we continued other forms of pressure. 
And working with the democratic forces in Serbia we led 1 year 
later, it did not happen overnight but 1 year later he was 
ousted from power. So I think this idea that we can a different 
set of objectives for the military dimension and a broader 
dimension is one that has been validated. It does not guarantee 
we will succeed here, but it is a powerful lesson that the 
strategy can work, and that is what we are trying to pursue 
here.
    As you also said, I had hoped to say a word about our 
attempt to build a long-term democracy in Libya because I know 
there are concerns about the Transitional National Council, and 
it is important that as this evolves that this evolves beyond 
the individuals who are now taking on that role to be 
inclusive, to be broad-based, to be tolerate, to be committed 
to the kinds of principles of human rights, rejection of 
extremism and violence that we all believe in. And that is part 
of the reasons that we do engage with the Council is to make 
clear that we do look forward to that kind of success, but it 
has to be a broad-based one and one consistent with our 
principles.
    I think what we have seen through the Middle East when we 
do engage and we support those processes we have a chance of 
succeeding and we are planning for it now. It is something we 
do understand that we cannot just wait until the moment arises. 
But that is part of the purpose of our engagement with both 
folks on the Council and others who are interested in the 
future of Libya.
    Chairman Ros-Lehtinen. Thank you, Mr. Steinberg.
    Thank you, Mr. Meeks.
    Mr. Pence, Subcommittee on the Middle East and South Asia 
vice chair.
    Mr. Pence. Thank you, Chairman.
    And I want to thank the Deputy Secretary of State for your 
service to the country over the last several years and in prior 
administrations. And I do wish you well in your next employ.
    I actually want to get give you an opportunity to answer a 
couple of questions. I think you heard in my opening statement, 
I think it is important that we say we are at war in Libya. And 
while I am troubled about various aspects of how we began this 
conflict, I will never jeopardize support for our troops. And I 
always attempt to maintain the level of deference and respect 
that is due and owing to the Commander in Chief, and to the 
executive in matters of war. But I want to say, and it is not 
my question, I do not believe the President has the unilateral 
authority to take America to war with Congressional approval 
where our safety or vital national interests are not directly 
implicated.
    And so my first question, if you want to scribble it, is I 
will give you three and you can pick whichever ones, my first 
question is: How was the safety of the people of the United 
States of America or our vital national interests implicated in 
a way that justified the President bypassing the ordinary 
deliberation, consideration and authorization of the Congress 
in one form or another?
    Secondly, in my opening statement I also said I think 
history teaches that the wisest course of action is not limited 
war and that America has succeeded throughout our history when 
we have chosen to send our most precious heroes and a treasure 
into combat if we had made the decision that when you go to 
war, you go to war to win?
    And my next question is what is the objective here? I hear 
that there is a political objective that we hope Maummar 
Ghadafi goes, but that that is not the military objective. So 
my second question is how do we define victory?
    And thirdly, you know the President has said that we should 
not repeat the mistakes of Iraq. We have gone down that road 
before. He does not want the mission to involve regime change. 
And as I said before, I stipulate that this is a very different 
road than Iraq. In Iraq we had a clear objective; defeating the 
enemy and removing a dictator. We had a clear congressional 
bipartisan approval. We had careful military preparation. Then 
we went and got international support. And through trial and 
sacrifice of blood and treasure we prevailed.
    Here we have no clear objective. No Congressional approval. 
Military preparation, as was just suggested, has been done ``on 
the fly.'' We have mixed international support. And we are 
involved in an aerial bombardment campaign plus on the ground.
    And so my question is: Why should not the Congress take up 
and debate, and amend, and consider and vote on a resolution 
authorizing the use of force in this case and specifically lay 
out what the objectives and the mission, and the goal of the 
American people is in Libya?
    Mr. Steinberg. Congressman, let me start with the last, 
which is that we obviously welcome the support of the Congress 
here. But as you know, Presidents of both parties have viewed 
their authority as Commander in Chief to use military force 
when it is limited in scope and duration. We have used it in 
Libya before where there was a limited scope and duration 
operation.
    So, we have consulted closely with Congress. We would look 
forward to working with Congress on this. And again, we would 
welcome their support.
    In terms of the interest, in my opening statement I quote 
the President because I think it is a very clear statement of 
how he sees the strategic interests. And I could repeat it, but 
I want to spend the time here----
    Mr. Pence. If I could interrupt because I respect your 
background and experience on this. When President Reagan made 
the decision to launch missiles into Maummar Ghadafi's 
compound, did that go on for more than a day? What is the 
history of that?
    Mr. Steinberg. Again, and that is my point, is that 
Presidents have viewed when the involvement is limited in scope 
and duration, that they have the constitutional authority to do 
it. And one of the things that is remarkable----
    Mr. Pence. But that instance was a day. It was one launch, 
it was on attack. And we have been at this in Libya now with 
over 100 Cruise missiles and air support and ground bombardment 
and now we are talking about equipment and maybe more for 
several weeks.
    Mr. Steinberg. Right. And I think what is distinctive about 
this, and there have been a number of instances, I just 
mentioned Libya because it is not the first time we have 
engaged in Libya. But that we have already significantly moved 
forward to reduce the scope and duration of our activity. To 
move it to NATO control is a reflection of that. And I think 
the President is very conscious of the fact that this is the 
way he has defined the mission.
    And so, as you said, it is important that we define the 
mission. As I was discussing earlier with Congressman Meeks, we 
have examples in the past where we have used limited force for 
a humanitarian mission and at the same time pursued the broader 
political objective as we did in Kosovo, and succeeded in our 
mission----
    Chairman Ros-Lehtinen. Thank you, Mr. Steinberg.
    Thank you, Mr. Pence.
    Mr. Pence. Thank you.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman.
    Mr. Secretary, again, thank you for being here.
    I am one who, based on the international framework that was 
created from calls of both the Arab League and the U.N. 
Security Council for a limited scope no fly zone, was 
cautiously supportive of the President's actions in that 
respect. But I must say it is not often I, myself, am on common 
ground with Mr. Burton, but I do think this question is 
relevant and I want to give you the opportunity, you are about 
to go into academia, tell me what if anything with respect to 
the War Powers Act do you believe is triggered in this 
particular intervention?
    Mr. Steinberg. Well, Congressman, as I said before, I mean 
this President and all Presidents read the War Powers 
resolution consistent with their constitutional authorities 
under Article II. And although I am aware of my training will 
be on the war faculty as well as my own faculty when I get to 
Syracuse, I am not here to represent the legal opinion of the 
administration.
    But I would say that we consulted the Congress, we provided 
the notification that is consistent with the War Powers Act 
within 48 hours after the beginning of hostilities. So we are 
following the practice that administrations in the past have 
followed in terms of how we engage with Congress on these kinds 
of activities.
    Mr. Connolly. Do you believe that pursuant to the War 
Powers Act some act of authorization is required from this 
Congress?
    Mr. Steinberg. I think, Congressman, that when the 
President engages in the use of military forces where the 
action is limited in scope and duration, that he has authority 
under the Constitution to do that. Having said that, we are 
mindful of the War Powers resolution and we have acted 
consistent with it.
    Mr. Connolly. In previous no fly zones, particularly in 
Iraq in the north and then subsequently in the south, what 
provisions of the War Powers Act did Presidents at that time 
follow? Did they also follow the reporting rule?
    Mr. Steinberg. It is my understanding. I am not here as a 
Justice witness. But that the position of previous 
administrations of both parties is that they have had the 
practice of acting consistently with the War Powers Act while 
reserving the authorities that they saw of the President.
    Mr. Connolly. And would you refresh my memory? The 
authority in the Constitution you cite for the President to go 
into Libya, or anywhere else for that matter, is what again?
    Mr. Steinberg. His authority as Commander in Chief.
    Mr. Connolly. As Commander in Chief? So from your point of 
view the Commander in Chief de novo is free under the 
Constitution to deploy U.S. troops as he sees fit?
    Mr. Steinberg. Again, Congressman, I am here acting not as 
the lawyer, but the client. But my understanding of the 
position of the Justice Department, the Office of Legal Counsel 
is that when the use of military activity, military force, is 
limited in scope and duration the President has certain powers 
under the Constitution. But they are defined, and the test is 
when the action is limited in scope and duration.
    Mr. Connolly. I understand.
    I guess, respectfully, I am a pretty constructionist with 
respect to War Powers. The Constitution could not be clearer 
that the War Powers contained in the Constitution are 
exclusively and entirely with the Congress of the United 
States.
    Mr. Steinberg. You are a good lawyer, Congressman, and you 
know that it is that the authority to declare war is with 
Congress, and that is obviously the matter that we are 
discussing----
    Mr. Connolly. Well but just as the executive branch claims 
inherent powers under the provision you cite, I mean if we have 
under the Constitution, clear as a bell, the power to declare 
war, it could not be clearer that there are inherent powers 
that flow from that as well, including the decision in advance 
whether or not to deploy U.S. military personnel.
    I do not agree with your interpretation of the Commander in 
Chief powers. He gets to be Commander in Chief after we decide 
whether or not troops are to be deployed. But that is a fight--
--
    Mr. Steinberg. It is a longstanding conversation.
    Mr. Connolly. Yes.
    Mr. Steinberg. And executive branch is----
    Mr. Connolly. Yes. Yes. And the last President to recognize 
that was Franklin Delano Roosevelt. Not a bad President, 
however.
    Final point: I want to give you the opportunity, what if 
anything are we going to do with the frozen assets that turned 
out to be much bigger than we thought of Libya and can we, 
should we use any of them to finance this endeavor?
    Mr. Steinberg. This is something I know a number have 
asked, and I think at this point what I would say is that: (1) 
The assets were frozen for the benefit of the Libyan people. I 
think it is a conversation that we will have with both the 
existing Transitional National Council. Other countries have 
had frozen assets. And what we hope is a democratic government 
in Libya to find a good resolution that reflects the fact that 
there are many ways in which that could be done for the benefit 
of the Libyan people.
    We are having an ongoing conversation. No decisions have 
been made.
    Mr. Connolly. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you. Thank you, Mr. Connolly.
    Ms. Buerkle, the vice chair of the Subcommittee on 
Terrorism, Nonproliferation, and Trade is recognized.
    Ms. Buerkle. Thank you, Madam Chairman.
    And thank you, again, for being here this morning, Mr. 
Steinberg.
    I want to start out my questions first with Pan Am 103 an 
what our chairwoman mentioned at the beginning of this hearing, 
and that is our concern. I am sure you are well aware of 38 
students from Syracuse University were on that flight.
    Mr. Steinberg. Yes.
    Ms. Buerkle. And about a month ago we had the opportunity 
to interview Secretary of State Hillary Clinton and I asked her 
that question: What will this administration do to be sure that 
we are collecting evidence and that we will prosecute the 
parties responsible which we have good reason to believe is Mr. 
Ghadafi? And I would encourage you, strongly encourage you and 
this administration to pursue that. There are so many families 
who are still waiting for closure. They have not had this one 
final piece put into place. An so, on their behalf we implore 
this administration.
    We now have a good opportunity with the defection of the 
Foreign Minister yesterday to take this opportunity to ask 
questions and to find out so we can prosecute Mr. Ghadafi for 
this heinous, heinous crime.
    Mr. Steinberg. Congresswoman, I know how strongly Secretary 
Clinton feels about this, too. And working with the Justice 
Department and others it is something that we definitely intend 
to pursue.
    Ms. Buerkle. Thank you.
    Beyond that now I want to talk a little bit, we have heard 
so much about ground troops. And right now you have mentioned 
that we are not going to pursue that. But you did mention in 
the U.N. Resolution occupation forces, and you sort of touched 
on that but you did not really elaborate on that. Can you take 
that phrase out of the U.N. Resolution and expand for us what 
that means and whether or not, because we witnessed this 
administration unilaterally applying authority for the 
missiles, now whether or not any further steps would be 
required by this administration to commit grounds and if not? 
So, I would like to hear your thoughts on that.
    Mr. Steinberg. Obviously, you know for us the issue of 
precisely what would constitute occupation for us does not 
really arise because the President has made a policy decision 
that he does not intend to send ground troops. So, I think if 
there were an intention or somehow if things would change, 
which I have absolutely no reason to expect I think the 
President has been clear about it, obviously that is something 
that we would welcome a conversation with Congress about. But I 
find it very difficult to imagine, given the strong position 
the President has taken on it, that that issue is likely to 
arise.
    Ms. Buerkle. What does the U.N. Resolution call for with 
regards to this occupation forces?
    Mr. Steinberg. It does not authorize an occupation force. 
It does not call for any. So what it says is all necessary 
means to help the civilians, but it does not authorize an 
occupation force. So it is just a limit on what is otherwise a 
very broad grant of authority to the international community to 
use military force.
    Ms. Buerkle. I think the concern of this Congress is that 
the policies have been so vague in our mission, in our goals 
and what are we doing there, and what is the end game that we 
were concerned that now committing ground troops there may be 
something, again, it is not brought to the Congress and it is 
not brought to the American people. And I think that that is 
the concern here; that this whole operation escalates, we are 
in this position without Congress' consent and without consent 
of the American people. As my colleague Mr. Pence mentioned, it 
was a unilateral authority that got us into this. So now how do 
we prevent any further commitment of troops from our country?
    Mr. Steinberg. Well, thank you, Congresswoman.
    But I would say first, and I have not mentioned this 
before, not only have we had conversation with Congress, but 
there have been significant expressions of support including by 
the other body on this issue.
    The other thing I would say is the President I think could 
not have been clearer about ground troops. And more 
importantly, what you see already a reduction in our military 
activities there. As we move forward with this transition, the 
United States is stepping back from the front line. We are 
focusing on providing support by things like intelligence and 
those kinds of things.
    So, I think the President has lived up to his commitment to 
the American people and to the Congress that this is a limited 
effort, that we are reducing our scope and far from moving in 
the direction that I know you are concerned about. We are 
moving, actually, in the other direction which is to reduce the 
U.S. military role there.
    Ms. Buerkle. Can you assure this Congress that the 
President would not commit ground troops without consenting and 
having a conversation with the Congress?
    Mr. Steinberg. At this point, Congresswoman, I could only 
say that the President has made clear to all of us in the 
administration that he has no intention of doing that.
    Ms. Buerkle. Thank you very much.
    Thanks for being here this morning.
    Mr. Steinberg. Thank you.
    Chairman Ros-Lehtinen. Thank you to both.
    Ms. Bass of California is recognized.
    Ms. Bass. Thank you very much, Madam Chair.
    First of all, Mr. Secretary, I wanted to congratulate you 
on your new role.
    Mr. Steinberg. Thank you.
    Ms. Bass. And I wanted to start my comments by commending 
the Obama administration for making the tough decision at this 
critical moment which I believe ultimately prevented a 
potential massacre in Libya.
    I wanted to ask you a couple of questions, two questions. 
First, beginning with NATO, as it is often said that given the 
significant role that we play in NATO, what real difference did 
it make that we have now pulled away and turned over the 
command to NATO? So I wanted to know if you would specifically 
distinguish the role of the United States versus the role of 
the other nations that are in NATO?
    And then my second question. You were asked earlier about 
building a democratic government in post-Ghadafi Libya, and I 
believe you ran out of time and I wanted to know if you would 
expand on that?
    Mr. Steinberg. Sure. First, in some ways from our 
perspective the transition to NATO command gives us the best of 
both worlds, which is that we are able now to step back, to 
leave the principal responsibility for enforcing the no fly 
zone and the protection of civilians to other forces, both NATO 
and the associated forces that are working under NATO command 
and control. And we will focus on support activities like 
intelligence and reconnaissance, and the like. So, we are 
definitely playing a less front line role in terms of the 
operation of military activities.
    At the same time, we get the benefit of the well 
established, well oiled machine that can conduct effective 
military activities. And even for the limited role we can be 
assured that our forces are under American command because 
ultimately all the forces are under Admiral Stavridis who is 
American Admiral.
    So, we have an opportunity for us to play less of an 
operational role, but still have the benefits of a well 
established and disciplined NATO command and control.
    In terms of the transition this is enormously important to 
us. Because while we are working with the Transitional National 
Council and we appreciate the efforts that they have made to 
step up to try to provide some leadership and some coherence 
here, that ultimately this has to be broadened. And as we move 
forward and have an opportunity to have a real democratic 
transition there, we need to make sure it is broad-based, we 
need to make sure that the different voices are represented, we 
need to make sure that it is consistent with the basic 
principles that we apply everywhere and the same things we are 
looking for in Egypt and Tunisia and throughout the Middle 
East. And that is a critical part of our engagement. And we 
have been encouraged by the dialogue that we have had with the 
membership of the Transitional National Council, their 
willingness to articulate a set of principles which I think we 
could all feel very comfortable about.
    I know members want to see the delivery as well as the 
words, and that is fair. We need to make sure that this is not 
just paper declarations by them, but that they carry it out. 
And that is something that we will work on. And so we are 
beginning to work with the Council, with forces and voices 
outside of Libya with neighboring governments, with NGOs to 
begin the process so that we are ready to go when that day 
comes that the process can move forward.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Bass.
    Mr. Duncan of South Carolina.
    Mr. Duncan. Thank you, Madam Chairman.
    Let me just remind the panelist and the American people 
that we are still at war against terror. Military strategist 
Sun Tzu once advised if you know your enemy and know yourself, 
you need not fear the result of a 100 battles. So I ask the 
question: Do we know our enemies and do we understand their 
covert strategies?
    In this operation in Libya, do we know who makes up the 
rebel opposition? Are they receiving support from al-Qaeda or 
the Muslim Brotherhood? How do we know that the Libyan rebel 
opposition groups are not worse for America's national security 
interests than Ghadafi?
    The Yemeni American cleric who is the top propagandist for 
al-Qaeda stated in the newest edition of ``Inspire,'' which is 
a recruit tool for al-Qaeda. Anwar al-Awlaki said this: ``The 
Mujahideen around the world are going through a moment of 
elation, and wonder whether the West is aware of the upsurge of 
Mujahideen activity in Egypt, Tunisia, Libya, Yemen, Arabia, 
Algeria and Morocco?'' This is according to The New York Times, 
March 30th.
    Global Muslim Brotherhood leader Ouseef Qaradawi, I cannot 
pronounce that exactly right, he gave a sermon reported by the 
Gulf media in which he called Arab leaders to recognize the 
Rebel National Libya Council to confront tyranny in the regime 
in Tripoli.
    So I ask you, sir, do we honestly know who makes up the 
rebel opposition?
    Mr. Steinberg. Thank you, Congressman.
    You know, I think we can hear these claims by Awlaki and 
Qaradawi and others, but the truth is what we have seen 
throughout the region is that these movements, whether it is in 
Egypt and Tunisia, are not being driven by al-Qaeda or others. 
These are democratic forces. And they may want to try to claim 
it because they are behind the curve on this. And I think they 
are trying to catch up because they do not have the support. 
And what we have heard from our engagement with the 
Transitional National Council is they are not looking to al-
Qaeda. They have rejected al-Qaeda. They issued a very strong 
statement the other day.
    So I would take these statements as a sign of groups that 
desperately want to be seen in the vanguard of these things 
because they are afraid it is moving in a direction that is 
against them. And that, in fact, our values, our principles are 
on the ascendancy.
    When you read the words that the Transitional National 
Council issued, those are words that would resonate for 
Americans and for people who believe in freedom and democracy.
    So, I do not take their statements as somehow reflecting 
the fact that they own these movements. And as Congressman 
Rohrabacher earlier suggested, it is precisely because we are 
engaged and supporting these movements that they have a future, 
they look to us in the West as being their partners and being 
on their side. So we have to be attentive, we have to be alert.
    We know that al-Qaeda has had a presence in Libya in the 
past. We want to make sure it does not reestablish it there. 
But what we have seen so far is that this is not a significant 
factor. That this is not something that the people we are 
engaging seem to want. And we need to stay vigilant, but we 
need to also not let the rhetoric of others who want to try to 
hijack this dissuade us from----
    Mr. Duncan. All right. In the essence of time, I saw in the 
news today that CIA has gone into Libya to try to determine who 
the rebels are. And so I will commend the administration and 
the CIA for finally trying to determine that.
    On a separate line of questioning, the President said in 
his speech Monday night that in Libya we are faced with a 
prospect of violence on a horrific scale, and we had a unique 
ability to stop that violence. Did we? That is a rhetorical 
question.
    And you mentioned humanitarian intervention a couple of 
times as I have been sitting here. So, to be clear, if 
humanitarian intervention is the President's justification for 
action, tell me why we have not invaded Uganda? And if this is 
the Obama doctrine that the United States will intervene for 
humanitarian reasons, then tell me why we have not invaded 
Sudan, Chad, Congo, Bahrain, the Ivory Coast, Syria, Iran, and 
other areas where we have seen humanitarian needs where 
civilian populations have been attacked by their governments, 
decimated in many local instances? And so is that what the 
Obama administration, this administration, is trying to set as 
American foreign policy that we are going to send Americans 
into harm's way and expend American resources? When we are $14 
trillion in debt, are we going to send to every corner of the 
world where there is humanitarian needs? And that is a 
rhetorical question as well.
    So, I am concerned that we are setting a precedent here 
that we may not be able to live up to.
    I am also concerned that this administration talked to the 
U.N., NATO, and the Arab League prior to talking to this 
Congress.
    I applaud him for coming yesterday, the administration 
coming yesterday to bring us up to speed. But, Madam Chairman, 
I wish he would have informed us ahead of time.
    Thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Duncan.
    Mr. Cicilline of Rhode Island is recognized.
    Mr. Cicilline. Thank you, Madam Chairman.
    Thank you, Mr. Secretary.
    I want to begin by thanking and really acknowledging the 
administration for its thoughtful deliberation and decision 
making in a very, very difficult set of circumstances. And I 
particularly want to commend the diplomatic leadership of 
Secretary Clinton and you, and others for building this strong 
international coalition with NATO and the Arab League and 
others.
    And I think most Americans are sort of genuinely 
conflicted. On the one hand we accept the representations of 
our President that he prevented a humanitarian crisis, or we 
did as a country in partnership. And also that we have a 
strategic interest in preventing instability in this region of 
the world, particularly as emerging democracies in Tunisia and 
Egypt are being born and so that there are consequences.
    And so I think we would normally not be necessarily having 
the conversation about the cost of it, except that we are in 
very difficult and challenging financial times. And I hope that 
part of the conversation with this emerging political 
leadership in a post-Ghadafi Libya will embrace the notion of 
accepting some financial responsibility for this work, both as 
a way to compensate American taxpayers, but also as a real 
indication of the actions of a responsible government. And I 
know you have heard that from the committee loudly and clearly.
    So, what I am really interested to hear from you is what is 
your sense of what is the post-Ghadafi political leadership in 
Libya like? Are they likely to embrace that view of the world 
of sort of some responsibility? Because I really think this 
money belongs to the Libyan people, but it would be a great 
sign of a new government that they accepted the responsibility 
for some of the costs that we are bearing. But is there 
religious elements to this emerging leadership of the 
Transitional National Council, is it likely to form the basis 
of a new political leadership in a post-Ghadafi Libya? And, you 
know I know we are deepening our engagement with them, but if 
you could share with us as much as you know about what that 
political leadership looks like and whether the principles that 
they articulated on March 22nd: The support for a 
constitutional and democratic civil state, and respect for 
human rights, and guaranteed equal rights, and opportunities 
for all its citizens, whether they are likely to have the 
capacity to give meaning to those principles?
    Mr. Steinberg. Well, Congressman, I think it is our 
challenge to help shape that and help try to bring that about. 
I think we cannot know for certain. And, obviously, Libya is a 
country that has suffered tremendous destruction of its social 
infrastructure, the political infrastructure over 40 years. So 
it will be a struggle for them to build the kind of community 
and the kind of democracy that is more than just an election, 
but has civil society and it has protection of human rights. 
But that is why we need to be. That is why we need to be part 
of this, and that is why we need to help shape it and support 
those voices who issued these statements that are consistent 
with our values.
    I think our presence, our engagement, our support increases 
the chances that we will have that kind of outcome, just as it 
has been the case in all these other transitions that are 
taking place. That is why we are committed to doing it.
    If I could make a little commercial here. I think it is 
important as you consider your budget deliberations to make 
sure that we have the resources to support democratic moves, to 
support NGO, to support the rule of law, to support anti-
terrorism; all of those forces that will allow us to be an 
effective force going forward.
    Mr. Cicilline. And is there a historical precedent for our 
having persuaded someone that we helped in this way to bear 
some of the costs? And is that part of conversations at least 
that are currently underway with the Transitional National 
Council? I assume that that has come up?
    Mr. Steinberg. You know, I think that it is obviously early 
days, yes. And you have heard from others members that they 
have heard that from the Transitional National Council.
    I think that what we are now focused on is what needs to be 
done to help them support it, and obviously if the outcome of 
this is that they see that as something that they would choose 
to do. But part of the reason we have been trying to be careful 
about this is because we do not want to be seen as telling them 
what is best for them. But on the other hand, encouraging them 
to do the right thing and move in the right direction. And we 
want to work with them and others to achieve the result. But I 
certainly understand the sentiments that have been expressed.
    Mr. Cicilline. Thank you, Mr. Secretary.
    I yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Cicilline.
    And batting clean-up, Ms. Schmidt of Ohio.
    Ms. Schmidt. Thank you. And it is the opening day of the 
Reds today, and I am wearing my red scarf. Cincinnati Reds, by 
the way, sir.
    Mr. Deputy Secretary, I, like most Americans, am concerned 
about this endeavor, and concerned for a couple of reasons.
    The first is if we do not take Ghadafi out, my fear is that 
he will become emboldened in the region, and not only just 
emboldened in the region, but what he will do to the rebels. He 
said he will go after them and massacre them. And I truly 
believe that he will. So here is the problem I have--the 
strategy: We are only going to do an air strike, but an air 
strike clearly is not enough. And Ghadafi is smart enough to 
allow us to go in and strike and then let the rebels come in 
and think that they are going to take over a village or their 
area, and then he comes in and he gets them. Because the 
problems with the rebels are twofold. They do not have any 
training and they do not have real weapons to combat Ghadafi's 
weapons.
    Now my concern is if there is an effort to get them 
training and an effort to get them weapons, do we have the 
security that these rebels will be better than Ghadafi or will 
they be worse? Again, the devil that you know sometimes is 
better than the devil that you do not know. So these are 
legitimate concerns that I have, and I do believe that 
Americans have. So that is my first question.
    Mr. Steinberg. Thank you, Congresswoman. And I think those 
are very good and serious questions.
    I would say first on the issue of getting Ghadafi out, I 
think we share your view. I do not think we think that it would 
be a stable or a successful outcome for Ghadafi to stay. But as 
I said talking earlier about the situation in Kosovo, we 
demonstrated in the past that you could have a military 
operation that is designed to blunt the humanitarian capacity 
as we saw in Kosovo, and an ongoing and political and economic 
strategy that can ultimately lead to the leader going.
    And what happened in Kosovo was very much a pattern that we 
hope will happen here, and we think we have the same kinds of 
tools and opportunity to do that.
    With respect to support for the opposition, I think you 
have raised the right questions, which is why on the one hand 
we believe very clearly that under the second Security Council 
resolution that there is an option that is available to provide 
support for the opposition. But if we were to do that or if 
others were to do it, we want to make sure that it would serve 
our broader interests in creating a democratic state of Libya. 
Those are the questions that we are discussing with ourselves, 
with others, and that is something that we have not yet made a 
decision about.
    Ms. Schmidt. Thank you. A couple of follow-up questions.
    While you might want to compare this to Kosovo, actually 
they are very different parts of the world. And while one 
strategy might work in one area of the world, it may not work 
based on a variety of issues, including the trade, the culture, 
the environment, the neighborhood in the other. And so I would 
not be so comfortable to compare this to the similar situation 
over 15 years ago in Kosovo.
    But having said that, the second concern that I have, that 
I think a lot of Americans have, is that we chose Libya 
clearly, as some other folks have suggested on this panel. Why 
Libya? Why do we go after Ghadafi for the cruelty and 
inhumanity that he has shown to the folks in this country when 
you have folks in Dhofar that have been suffering for almost a 
decade now, and maybe even over a decade, and we have done 
little to nothing for those folks?
    So, I am kind of surprised that we would put all of our 
eggs in this basket when there are other troubled spots around 
the world that might need the same human compassion.
    Mr. Steinberg. Congresswoman, the President addressed that 
in his speech and I had an opportunity earlier today to talk 
about that as well.
    I think we made very clear that Libya is a very specific 
case, and it is not simply the humanitarian dimension, although 
it is an important one. But as the President said, the 
instability in Libya threatened the democratic transitions that 
were taking place in Egypt and Tunisia, and I do not think 
anybody would dispute that we have a tremendous interest in 
making sure that we have a stable and a democratic Egypt.
    Second, we have a situation where we had the appeal of the 
regional organization, the Arab League, which is a very strong 
situation which is not the case with respect to some of these 
other humanitarian situation that we are dealing with. And 
there was an opportunity for the United States to play a 
limited role here to support the efforts of others.
    So, each case has to be taken on its own terms.
    We have a deep engagement on Dhofar we are involved. In the 
Sudan we have helped broker the Comprehensive Peace Agreement 
which is now moving forward. And we are involved in trying to 
support that in Dhofar.
    And Cote d'Ivoire the same. We passed a new Security 
Council resolution yesterday that tightened the measures there 
which we hope will lead to the validation of President Quattara 
and the end of the humanitarian situation there.
    So each situation has to be dealt with in terms of our 
national interests and the tools that are available.
    Ms. Schmidt. And my final comment is if we are going after 
the bear in the woods and you strike the bear, you had better 
take the bear out because the bear will take you out.
    If we want stability in this region, Ghadafi then is going 
to have to go, because if Ghadafi remains, the region is not 
going to be more stable; in my opinion, it is going to be less 
stable.
    Thank you very much.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Schmidt.
    Thank you, Mr. Steinberg for excellent testimony. We look 
forward to continuing this conversation on such an important 
issue.
    And with that, the committee is adjourned.
    Thank you.
    [Whereupon, at 12:28 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               
                                 <all>

</pre></body></html>
